Audit Report




OIG-11-048
Audit of the Department of the Treasury Forfeiture Fund’s
Fiscal Years 2010 and 2009 Financial Statements


December 8, 2010




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GEN ERAL




                                                December 8, 2010


            MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                     Michael Fitzgerald
                                      Director, Financial Audits

            SUBJECT:                  Audit of the Department of the Treasury Forfeiture Fund’s
                                      Fiscal Years 2010 and 2009 Financial Statements

            I am pleased to transmit the attached audited Department of the Treasury
            Forfeiture Fund (TFF) financial statements for Fiscal Years 2010 and 2009. Under
            a contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of TFF as of September 30, 2010 and 2009 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                     •   Independent Auditor’s Report on Financial Statements;
                     •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                         and
                     •   Independent Auditor’s Report on Compliance with Laws and Regulations.

            In its audit, GKA found:

                     •   the financial statements were fairly presented, in all material respects, in
                         conformity with accounting principles generally accepted in the United
                         States of America;
                     •   no deficiencies in internal control over financial reporting that are
                         considered material weaknesses; and
                     •   no instances of reportable noncompliance with laws and regulations
                         tested.
Page 2


In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated October 29, 2010 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits at
(202) 927-5591.

Attachment
                 gka, P.C.                                       Certified Public Accountants | Management Consultants




                           Treasury Forfeiture Fund
                             ACCOUNTABILITY REPORT
                                 Fiscal Year 2010
                                  DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C.




                                                                   Member of the American Institute of Certified Public Accountants


1015 18th Street, NW · Suite 200 · Washington, DC 20036 · Phone: 202-857-1777 · Fax: 202-857-1778 · WWW.gkacpa.com
                                      Message from the Director

I am pleased to present the fiscal year (FY) 2010 Accountability Report for the Treasury Forfeiture Fund (the
Fund). While highlighting the Fund’s financial and operational performance over the past year, this report also
focuses on some of the significant investigative achievements of our participating law enforcement agencies
this year. FY 2010 was our most successful revenue year yet for the law enforcement bureaus participating in
the Treasury Forfeiture Fund, with earned revenue of over $1.1 billion from all sources as compared to $527
million in FY 2009, more than doubling that banner year.

The continued high-impact performance of the Fund reflects the ongoing hard work of our law enforcement
bureaus as well as Fund management’s emphasis on major case initiatives, asset forfeiture program training
and a focused approach regarding our performance measure which gauges revenue from high-impact cases.
The mission of the Fund is to affirmatively influence the consistent and strategic use of asset forfeiture by our
law enforcement bureaus to disrupt and dismantle criminal enterprise. It is our view that the greatest damage
to criminal enterprise can be achieved through large forfeitures, hence we have set a target level of 75 percent
of our forfeitures to be high-impact, i.e., cash forfeitures equal to or greater than $100,000. For FY 2010, our
member bureaus exceeded the target with a performance level of 93.11 percent high-impact cash forfeitures.
Contributing significantly to this year’s outstanding performance by our member bureaus was the large
forfeiture from the ABN AMRO major case investigated by IRS-CI that resulted in a forfeiture deposit of $500
million during FY 2010. The Fund’s performance excluding this single large case deposit remains outstanding
at 85.36%.

During FY 2010, the Treasury Executive Office for Asset Forfeiture (TEOAF) launched a new seminar series
entitled “Investigative and Forfeiture Issues Involving the Southwest Border.” The first seminar, held in
February 2010, covered a broad range of issues including bulk currency/post interdiction financial
investigations, human smuggling/trafficking, task forces operating on the Southwest Border, law enforcement
activities in Central and South America, and international coordination, and Black Market Peso Exchange
(BMPE) trade based money laundering. There were a number of case studies illustrating law enforcement
efforts and best practices.

Additionally, in FY 2010, TEOAF continued offering its training curriculum in Procedural Issues of the Asset
Forfeiture Program. This curriculum covers procedures and problem areas related to Remissions and Refunds,
Equitable Sharing, the Joint Operations Program, and the National General Property Contract. The importance
of these procedural issues is further increasing with the growth of revenue coming to the Treasury Forfeiture
Fund and subsequent growth of related programs, such as Equitable Sharing and Joint Operations.

Also, TEOAF partnered with IRS-CI to conduct a “two year reunion” conference for the members of IRS-led
Pilot Title 31 Task Forces, launched in the spring 2008 and funded by the Treasury Forfeiture Fund. The
purpose of this conference was to facilitate the exchange of experiences and best practices among the Pilot
Task Forces, as well as to address broader investigative issues encountered by the Pilot task forces, such as
those related to Money Services Businesses.

The Treasury Forfeiture Fund continues in its capacity as a successful multi-Departmental Fund representing
the interests of law enforcement components of the Departments of Treasury and Homeland Security.
Member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-CI), the U.S. Secret
Service, Immigration and Customs Enforcement (ICE), and Customs and Border Protection (CBP). The U.S.
Coast Guard continues its close working relationship with the legacy Customs bureaus. We look forward to
another successful year in FY 2011.

                                                          Eric E. Hampl, Director
                                                          Executive Office for Asset Forfeiture
                                                          U.S. Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
                                                           Table of Contents


Section I: Overview

    Profile of the Treasury Forfeiture Fund ...............................................................................1
    Strategic Mission and Vision ...............................................................................................1
    Case Highlights....................................................................................................................2
    Program and Fund Highlights............................................................................................20
    Program Performance ........................................................................................................21
    Financial Statement Highlights..........................................................................................23

Section II: Independent Auditor’s Reports

    Independent Auditor’s Report on Financial Statements ....................................................27
    Independent Auditor’s Report on Internal Control over Financial Reporting...................29
    Independent Auditor’s Report on Compliance with Laws and Regulations......................31

Section III: Financial Statements and Notes

    Financial Statements:
       Balance Sheets .............................................................................................................33
       Statements of Net Cost.................................................................................................34
       Statements of Changes in Net Position........................................................................35
       Statements of Budgetary Resources.............................................................................36
       Notes to Financial Statements......................................................................................37

Section IV:

Required Supplemental Information........................................................................................54

Section V:

Other Accompanying Information...........................................................................................56
                                Treasury Forfeiture Fund
                              FY 2010 Management Overview


Profile of the Treasury Forfeiture Fund

The Treasury Forfeiture Fund (the Fund) is the receipt account for the deposit of non-tax forfeitures
made pursuant to laws enforced or administered by law enforcement bureaus that participate in the
Treasury Forfeiture Fund. The Fund was established in October of 1992 as the successor to the
Forfeiture Fund of the United States Customs Service. The Fund is a “special receipt account.” This
means the Fund can provide money to other federal entities toward the accomplishment of a specific
objective for which the recipient bureaus are authorized to spend money and toward other authorized
expenses. The use of Fund resources is governed by law, policy and precedent as interpreted and
implemented by the Department of the Treasury which manages the Fund. A key objective for
management is the long-term viability of the Fund to ensure that there are ongoing resources to
support member-bureau seizure and forfeiture activities well into the future. The emphasis of Fund
management is on high impact cases that can do the most damage to criminal infrastructure.

The Treasury Forfeiture Fund continues in its capacity as a multi-Departmental Fund, representing
the interests of law enforcement components of the Departments of Treasury and Homeland
Security. Our member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-
CI), the U.S. Secret Service, Immigration and Customs Enforcement (ICE), and Customs and Border
Protection (CBP). The U.S. Coast Guard continues its close working relationship with the legacy
Customs bureaus and functions in a member-bureau capacity.

The Executive Office for Asset Forfeiture (EOAF), which provides management oversight of the
Fund, falls under the auspices of the Under Secretary for Terrorism and Financial Intelligence.
EOAF’s organizational structure includes the Fund Director, Legal Counsel, Assistant Director for
Financial Management and Assistant Director for Policy. Functional responsibilities are delegated to
various team leaders. EOAF is located in Washington, D.C., and currently has 24 full time
equivalent positions.

Strategic Mission

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus that participate in the Treasury Forfeiture Fund to
disrupt and dismantle criminal enterprises.

Strategic Vision

Fund management works to focus the asset forfeiture program on strategic cases and investigations
that result in high-impact forfeitures. Management believes this approach incurs the greatest damage
to criminal organizations while accomplishing the ultimate objective – to disrupt and dismantle
criminal enterprises.



                                       SECTION I - OVERVIEW                                         1
Case Highlights

The following case highlights are intended to give the reader an idea of the types of investigative
cases worked by the Fund’s law enforcement bureaus during FY 2010 that resulted in the seizure and
forfeiture of assets. Such cases as those profiled below are consistent with the Strategic Mission and
Vision of the Treasury Forfeiture Program, which is to use high-impact asset forfeiture in
investigative cases to disrupt and dismantle criminal enterprises.


Internal Revenue Service, Criminal Investigation (IRS-CI)
Department of the Treasury

MetLife Forfeits $13.5 Million; Deferred Prosecution Agreement re Improper Payments
Information included in the following forfeiture article is attributed to:
Department of Justice Press Release: “MetLife Enters Agreement to Resolve Investigation and Pay $13,500,000 in
Connection with Improper Payments Made to San Diego Insurance Broker,” dated April 15, 2010.

In April 2010, the Metropolitan Life Insurance Company (“MetLife”) agreed to pay $13.5 million to
the Federal Government based upon its role in making improper payments to a San Diego-based
insurance broker. These payments were not disclosed to MetLife’s customers or reported by
MetLife as required by the Employee Retirement Income Security Act of 1974 (ERISA). According
to the Non-Prosecution Agreement entered into by the company, MetLife knowingly implemented a
program of undisclosed and unreported payments designed to induce the San Diego-based insurance
brokerage firm and its Chief Executive Officer (CEO) to recommend MetLife to the brokerage firm’s
clients. MetLife’s sales force was also instructed to leverage the improper payments to promote
MetLife products.

ERISA requires the administrators of qualified insurance plans to provide certain specified
information, including all commissions and fees paid to insurance brokers in connection with the
purchase of group insurance, to the U.S. Department of Labor, Employee Benefits Security
Administration and the Internal Revenue Service. MetLife made these payments without disclosing
them to the insurance plan administrator. These improper payments were typically denoted by
MetLife as communications fees, request for proposal fees or enrollment fees. These hidden fees
were, in turn, generally included in the rates charged by MetLife to their insured.

    “Insurance commission and fee disclosures are designed to promote and ensure transparency.
           Any effort by an insurance company to conceal the payment of improper fees
                              or commissions will not be tolerated.”

                                                                                 Karen P. Hewitt, U.S. Attorney
                                                                                 Southern District of California

The U.S. Attorney’s Office in the Southern District of California agreed to a negotiated settlement of
this matter based, in part, on MetLife’s disclosure, cooperation and remedial actions. The Agreement
calls for MetLife’s continuing cooperation on any investigations arising out of the conduct described
in the Agreement.


2            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
BetOnSports Officials Forfeit $50 Million re Felony Racketeering Conspiracy
Information included in the following forfeiture article is attributed to:
United States District Court, Eastern District of Missouri, Eastern Division, Final Order of Forfeiture, Case No. S5-
4:06CR00337 CEJ (MLM), November 2, 2009; Article by Matt Richtel, “BetOnSports, After Indictment, Folds Its Hand
and Decides to Move to Asia,” published in SBRForum, August 11, 2006; the Article, “BetonSports Founder Nabbed in
Dominican Republic,” published by www.winneronline.com, identifying source as the St. Louis Business Journal, March
30, 2007; an Article by Melissa McNamara, “11 Charged in Web Gambling Crackdown,” published in
www.cbsnews.com, July 18, 2006; an Article by Robert Patrick, “Three BetOnSports workers plead guilty,” published in
the St. Louis Post-Dispatch, June 23, 2009; and the Gambling911.com, article, “The Rise and Fall of BetOnSports,”
dated August 13, 2007 (picture embedded in the article.)

In July 2006, the United States Attorney for the Eastern District of Missouri unsealed a 22-count
indictment against BetOnSports and several executives, accusing them of running an illegal Internet
gambling operation. The indicted BetOnSports officials were charged with a variety of violations
including charges of racketeering, conspiracy and fraud.             According to the indictment,
BetOnSports.com, incorporated in the United Kingdom, listed on the London Stock Exchange, and
based in Costa Rica, misleadingly advertised itself as the “World’s Largest Legal and Licensed
Sportsbook.”




                                  Figure 1 BetonSports offices at San Pedro Mall


Gary Kaplan (“Kaplan”), founder of BetOnSports, was charged with 20 felony violations of federal
laws including: the Wire Act, Racketeer Influenced and Corrupt Organizations (RICO) Conspiracy,
interstate transportation of gambling paraphernalia, interference with the administration of Internal
Revenue laws and tax evasion. Kaplan was arrested in the Dominican Republic in March 2007.
Kaplan was a former New York area bookie, arrested on gambling charges in New York in 1993.

In June 2009, two siblings and a former personal assistant of Gary Kaplan’s pleaded guilty to federal
charges and agreed to forfeit millions in illicit profits stemming from charges of helping to run an
illegal gambling operation once considered among the world’s largest, handling more than $1 billion
                                             SECTION I - OVERVIEW                                                  3
in bets a year. Final Orders of Forfeiture were entered against the two siblings in June 2009,
resulting in the forfeiture of nearly $6.8 million to the U.S. Government.

In December 2009, a Final Order of Forfeiture against Gary Stephen Kaplan was signed in the
Eastern District of Missouri, Eastern Division, which ordered the forfeiture of approximately $43.6
million in U.S. currency.

The U.S. Government had cooperation from Switzerland and others in the repatriation of forfeited
monies related to this case to the United States. Once equitable sharing payments are made to those
entitled to a share of the forfeited proceeds, the Treasury Forfeiture Fund will net about $13 million
from this matter.


                                  Joint Investigative Case with the FBI

ABN AMRO Bank N.V. Agrees to Forfeit $500 Million Pursuant to a Deferred Prosecution
Agreement
Information included in the following forfeiture article is attributed to:
Department of Justice Press Release: “Former ABN AMRO Bank N.V. Agrees to Forfeit $500 Million in Connection
with Conspiracy to Defraud the United States and with Violation of the Bank Secrecy Act.”

In May 2010, the former ABN AMRO Bank N.V., now named the Royal Bank of Scotland N.V.,
agreed to forfeit $500 million to the United States in connection with a conspiracy to defraud the
United States, to violate the International Emergency Economic Powers Act (IEEPA) and to violate
the Trading with the Enemy Act (TWEA), as well as a violation of the Bank Secrecy Act (BSA).
Fifty percent of the revenue will be shared with the Department of Justice Assets Forfeiture Fund
representing the joint investigative efforts of the Federal Bureau of Investigation (FBI) that lead to
forfeiture in this case.

A criminal information was filed in the District of Columbia charging the former ABN AMRO, a
Dutch corporation that was headquartered in Amsterdam, with one count of violating the BSA and
one count of conspiracy to defraud the United States and violate the IEEPA and TWEA. The bank
waived indictment, agreed to the filing of the information, and has accepted and acknowledged
responsibility for its conduct. ABN AMRO agreed to forfeit $500 million as part of a deferred
prosecution agreement.

Under IEEPA, it is a crime to willfully violate, or attempt to violate sanctions administered by the
Department of the Treasury’s Office of Foreign Assets Control (OFAC). TWEA makes it a crime to
willfully engage in financial transactions by, at the direction of, or for the benefit of Cuba or Cuban
nationals. Under the BSA, it is a crime to willfully fail to establish an adequate anti-money
laundering program. The IEEPA and TWEA violations relate to ABN AMRO conspiring to facilitate
illegal U.S. dollar transactions on behalf of financial institutions and customers from Iran, Libya, the
Sudan, Cuba and other countries sanctioned by OFAC.

According to court documents, from approximately 1995 and continuing through December 2005,
certain offices, branches, affiliates and subsidiaries of ABN AMRO removed or altered names and
references to sanctioned countries from payment messages. ABN AMRO implemented procedures
and a special manual queue to flag payments involving sanctioned countries so that ABN AMRO

4           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
could amend any problematic text and it added instructions to payment manuals on how to process
transactions with these countries in order to circumvent the laws of the United States.

According to court documents, ABN AMRO used similar stripping procedures when processing U.S.
dollar checks, traveler’s checks, letters of credit and foreign exchange transactions related to
sanctioned countries. ABN AMRO and the sanctioned entities knew and discussed the fact that,
without such alterations, amendments and code words, the automated OFAC filters at banks in the
United States would likely halt the payment messages and other transactions, and, in many cases, the
banks would reject or block the sanctions-related transactions and report the activity to OFAC. By
removing or altering material information, these payments and other transactions would pass
undetected through filters at U.S. financial institutions. This scheme allowed U.S. sanctioned
countries and entities to move hundreds of millions of dollars through the U.S. financial system.

The BSA violations involved the failure of the New York branch of ABN AMRO to                                  maintain
adequate anti-money laundering procedures and processes, and did not have adequate                              staffing,
training and oversight, which permitted multiple high-risk shell companies and foreign                         financial
institutions to use the bank to launder money through the United States. According                             to court
documents, $3.2 billion involving shell companies and high risk transactions with foreign                      financial
institutions flowed through ABN AMRO’s New York branch.

Throughout the investigation, ABN AMRO provided prompt and substantial cooperation, including
working with U.S. and foreign regulators. ABN AMRO also committed substantial resources to
conducting an extensive internal investigation into their misconduct and agreed to enhance its
sanctions compliance programs to be fully transparent in its international payment operations. In
light of the bank’s remedial actions, previous penalty payments and consent agreements, and its
willingness to acknowledge and accept responsibility for its actions, the Department of Justice has
agreed to recommend the dismissal of the information in one year, provided ABN AMRRO fully
cooperates with, and abides by, the terms of the deferred prosecution agreement.


                                Multi-Departmental, Multi-Fund Case
                              Treasury and Justice Forfeiture Fund Assets
                     Forfeited Cash and Sales Proceeds will be Returned to Victims

Scott W. Rothstein, Fort Lauderdale Attorney, Forfeits Approximately $60 Million in Assets re
Billion Dollar Ponzi Scheme
Information included in the following forfeiture article is attributed to:
United States District Court, Southern District of Florida, United States v. Scott W. Rothstein, Information, Case No. 09-
60331; United States District Court, Southern District of Florida, Plea Agreement, Case No. 09-60331-CR-COHN, signed
January 25, 2010; Department of Justice Press Release, “Fort Lauderdale Attorney Charged in Billion-Dollar Ponzi
Scheme,” dated December 1, 2009; Article in Business and Financial News.Reuters.com, “Florida lawyer pleads guilty to
huge Ponzi scheme,” dated January 27, 2010; and Article by Paul Brinkmann, “Next Rothstein Sale Includes Bugatti,”
published in The South Florida Business Journal, on May 10, 2010 (pictures embedded in the article of the Bugatti and
Rolls Royce.)

On December 1, 2009, the U.S. Attorney for the Southern District of Florida, and others, announced a
five-count criminal information charging attorney Scott Rothstein (“Rothstein”), 47, of Fort
Lauderdale, with one count of conspiracy to violate the Racketeering Influenced Corrupt
Organization (RICO) statute; one count of conspiracy to commit money laundering; one count of
conspiracy to commit mail fraud and wire fraud; and two counts of wire fraud. In addition, the

                                               SECTION I - OVERVIEW                                                     5
information sought to forfeit $1.2 billion, including 24 pieces of real property, numerous luxury cars,
boats, and other vessels, jewelry, sports memorabilia, business interests, bank accounts and more.

According to the information, from around 2005 through November 2009, Rothstein engaged in a
pattern of racketeering activity through his law firm, Rothstein, Rosenfeldt, and Adler, P.A. (“RRA”),
located in Fort Lauderdale, Florida. Specifically, the information alleged that RRA was the criminal
enterprise through which defendant Rothstein and others fraudulently obtained approximately $1.2
billion from investors through bogus investment and other schemes. The information alleged that
defendant Rothstein and co-conspirators used RRA to fraudulently induce investors to: (1) loan
money to non-existent borrowers based upon promissory notes and requests for short-term bridge
loans for business financing; and (2) invest funds based upon anticipated pay-outs from purported
confidential civil settlement agreements.




                  Figure 2       2009 White Bentley Convertible – Forfeited by Rothstein


Rothstein and other co-conspirators participated in an investment scheme commonly known as a
“Ponzi” scheme. Specifically, the Ponzi scheme involved the sale of purported confidential
settlement agreements in sexual harassment and/or whistle-blower cases. The potential investors
were told by Rothstein and other co-conspirators that confidential settlement agreements were
available for purchase in amounts ranging from hundreds of thousands of dollars to millions of
dollars, and could be purchased at a discount and repaid to the investors at face value over time. To
further the Ponzi scheme, Rothstein used the offices of RRA and the offices of other co-conspirators
to convince potential investors of the legitimacy and success of the law firm, which enhanced the
credibility of the purported investment opportunity.

Among the allegations in the information, Rothstein and others established numerous trust accounts
in the name of RRA in order to convince potential and current investors of the legitimacy of the
confidential settlement agreements and the security of such investments; prepared and used altered
bank statements, purportedly issued from a well-established international financial institution, to
fraudulently convince potential and current investors that funds had been received from the purported
defendant companies and were maintained in trust accounts; and created false and fictitious

6          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
documents, including confidential settlement agreements, assignment of settlement agreements and
proceeds, sale and transfer agreements, and personal guaranties by Rothstein among other documents.




                    Figure 3             2007 87’ Warren Yacht – Forfeited by Rothstein


The investigation disclosed that the investments purportedly underlying the investment scheme never
existed and that the entire investment scheme was a fraud. The investigation further established that
portions of criminally derived proceeds were used to pay past investors and were used to acquire
millions of dollars worth of assets also to promote the carrying on of the Ponzi scheme and enable
Rothstein to live a lavish lifestyle, which provided the appearance of success and, again, further
promote the scheme.




              Figure 4       2008 Bugatti Veyron - Likeness of the Vehicle Forfeited by Rothstein
                         The Rothstein Vehicle Sold at Auction in June 2010 for $858,000.

                                            SECTION I - OVERVIEW                                    7
Rothstein faced a total maximum statutory term of imprisonment of 100 years (20 years on each
count) if convicted. On January 25, 2010, Rothstein signed a Plea Agreement in which he pled guilty
to the five-count information, agreed to pay restitution and agreed to the forfeiture of the assets
identified in the information. On June 9, 2010 Scott Rothstein was sentenced to 50 years in federal
prison.




               Figure 5 2007 Rolls Royce Phantom – Likeness of the Vehicle Forfeited by Rothstein
                          The Rothstein Vehicle Sold at Auction in June 2010 for $240,000.



                                Significant Reverse Asset Sharing Revenue 1

Credit Suisse Forfeits $268 Million, of which $130 Million is Equitably Shared with the
Treasury Forfeiture Fund; Deferred Prosecution Agreement re Unlawful Transactions
Information included in the following forfeiture article is attributed to:
United States District Court for the District of Columbia, Joint Motion for Approval of Deferred Prosecution Agreement
and Exclusion of Time Under the Speedy Trial Act, Criminal No. 09-352, dated December 16, 2009; and
Article by Joanna Chung , “Credit Suisse steered $2bn through US,” published in the Financial Times, on December 17,
2009.

In a Deferred Prosecution Agreement, filed on December 16, 2009, Credit Suisse AG (“Credit
Suisse”), entered into a Deferred Prosecution Agreement (DPA) in which it waived indictment and
agreed to the filing of a one count criminal information charging that Credit Suisse knowingly and
willfully violated and attempted to violate regulations issued under the International Emergency
Economic Power Act (IEEPA) in violation of Title 50 U.S.C. §1705. Pursuant to the signed DPA,
Credit Suisse agreed to forfeit $268 million to the U.S. Government and pursuant to a separate DPA,
forfeited another $268 million to the District Attorney of the County of New York, for total

1
  Pursuant to 31 U.S.C. 9703(d)(2)(C), the Treasury Forfeiture Fund is authorized to deposit into the Fund all amounts
representing the equitable share of a Department of the Treasury law enforcement organization or the United States Coast
Guard from the forfeiture of property under any Federal, State, local or foreign law.

8            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
forfeitures for the violation of $536 million. The Treasury Forfeiture Fund’s equitable share from the
Department of Justice, the lead agency in this case, was $134 million.

Credit Suisse moved almost $2 billion through the U.S. financial system for up to 20 years on behalf
of customers from Iran, Sudan and Libya, violating U.S. sanctions. The bank used elaborate
procedures to hide the origins of the money including stripping out the names of sanctioned parties
from payment instructions so that wire transfers would pass undetected through filters at U.S.
financial institutions. Also during this time, Credit Suisse provided its Iranian clients with a
pamphlet entitled “how to transfer USD payments,” which detailed payment instructions on how to
get around filters.

Credit Suisse said in a statement that it was committed to the highest standards of integrity and took
“this matter extremely seriously.” It said it had carried out an investigation and ended business with
the sanctioned countries by 2007. The Office of Foreign Assets Control (OFAC), of the Department
of the Treasury, was also involved in the investigation.


Immigration and Customs Enforcement (ICE)
Department of Homeland Security

Pilgrim’s Pride Forfeits $4.5 Million, Non-Prosecution Agreement re Hiring and Employment
of Unauthorized Workers
Information included in the following forfeiture article is attributed to:
Newsletter update by McGuireWoods.com dated January 6, 2010, “Pilgrim’s Pride to Pay $4.5 Million as Result of
Immigration Investigation.”

In December 2009, the Federal Government reached a Non Prosecution Agreement with Pilgrim’s
Pride Corporation, one of the country’s largest chicken producers, to resolve an investigation
involving the hiring and employment of unauthorized workers. Under the terms of the agreement,
Pilgrim’s Pride agreed to pay $4.5 million and to adopt more stringent immigration compliance
practices. As part of the government's investigation, 25 unauthorized workers were arrested in
December 2007 at plants in Texas, and approximately 338 more were arrested in plants in Texas,
Florida, West Virginia, Arkansas and Tennessee in early 2008.

The Pilgrim’s Pride investigation is not unique. Over the last few years, a number of companies
throughout the country have felt the impact of worksite enforcement actions and government
investigations related to their compliance with immigration laws. In addition to the possible criminal
penalties including jail time, forfeiture, and debarment, there are the possible fines: companies
penalized as a result of an I-9 inspection can pay $375 to $16,000 for each unauthorized worker.


Two New York Importers Convicted in One of the Largest Counterfeit Goods Prosecutions in
U.S. History, Infringement Value if Released to Commercial Markets More than $100 Million
Information included in the following forfeiture article is attributed to:
Immigration and Customs Enforcement Press Release, “2 New York importers convicted in one of the largest counterfeit
goods prosecutions in U.S. history Infrinted Goods Valued at More than $100 Million”

In June 2010, Chong Lam (“Lam”), 52, and Siu Yung Chan (“Chan”), also known as Joyce Chan, 42,
both of New York, were convicted for their participation in one of the largest counterfeit luxury
goods operations in the United States, following an investigation by ICE. A federal jury in

                                             SECTION I - OVERVIEW                                                  9
Richmond, Virginia, found Lam and Chan each guilty on one count of conspiracy to traffic in
counterfeit goods imported from the People’s Republic of China (PRC); two counts of trafficking in
counterfeit handbags, wallets, purses and carry-on bags, and two counts of illegally smuggling
counterfeit goods into the United States.

According to evidence presented at trial, Lam and Chan and their co-conspirators operated a massive
international manufacturing, import and wholesale counterfeit goods business. Evidence introduced
at trial proved that Lam and Chan were controlling officers of at least 13 different companies in the
United States and overseas, and operated at least eight separate factories dedicated to producing
handbags, including enormous quantities of counterfeit bags.

According to evidence presented at trial, from 2002 until late 2005, U.S. Customs and Border
Protection (CBP) seized numerous containers of counterfeit luxury handbags and wallets imported
from China. A subsequent ICE investigation, including a review of documents filed with DBP,
disclosed that Lam and Chan imported over 300,000 counterfeit luxury handbags and wallets into the
United States from the PRC in the names of different companies, all under their control. During the
execution of a related search warrant on the defendants’ business address, Coco USA, located in
Manhattan, investigators seized approximately 1,500 cartons of alleged infringing items. The total
value of the corresponding authentic luxury goods manufactured by Burberry, Louis Vuitton, Gucci,
Coach, Fendi, Chanel and others is estimated to be over $100 million. This is the estimated
commercial value denied to these legitimate manufacturers if this counterfeit merchandise had gone
undetected and reached the commercial districts for sale.

The government is seeking forfeiture of the illicit proceeds of the enterprise including funds that the
defendants had transferred to bank accounts in the United States and overseas in the names of
companies under their control, as well as three properties in New York. At sentencing, Lam and
Chan each face a maximum of five years in prison and $250,000 fine for the conspiracy count, 10
years in prison and a $2 million fine for each trafficking count, and 5 years in prison and a $250,000
fine for each smuggling count.


                        ICE Returns $16,800 to Victim of Telemarketing Fraud
                                         via Project COLT

ICE Agents Return $16,800 to Victim of Telemarketing Fraud
Information included in the following forfeiture article is attributed to:
ICE News Release dated May 20, 2010, “ICE agents return $16,800 to victim of telemarketing fraud.”

In May 2010, an Alabama resident received $16,800 from ICE agents following a successful joint
investigation against fraudulent telemarketers. The investigation was part of a multi-agency, U.S.-
Canada initiative called “Project COLT.” Although there are many scam variations, in this case, the
callers fraudulently represent themselves as lottery officials. The scammers tell unknowing or elderly
victims that they have won the lottery and must pay fees and service charges to be able to collect their
fictitious winnings. ICE agents warn that con artists often pose as lawyers, customs officials, police
officers or lottery company officials to bilk their victims out of millions of dollars.




10           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
The Alabama telemarketing scheme victim, who requested to remain anonymous, submitted a
statement to help inform others about how to protect themselves from fraudulent telemarketing
offers.

  “…The letters and phone calls appeared legitimate as the telemarketers appeared to know a lot of
    information about me and my family. I never knew how this scheme worked until ICE agents
returned a portion of my funds that were seized in the fraudulent telemarketing scheme and educated
                        me on the illegal practices of these telemarketers….”

                                                      Alabama Telemarketing Scheme Victim (Anonymous)

Since its inception in 1988, Project COLT has seized and returned more than $25 million to U.S. and
Canadian victims of telemarketing fraud. Telemarketing fraud has become one of the most pervasive
forms of white-collar crime in Canada and the United States, with annual losses in both countries in
the billions of dollars.

                                      ICE Returns pre-Columbian and
                                       Mayan Artifacts to El Salvador

ICE and CBP Recover pre-Columbian Artifacts in Joint Investgation into Smuggling Ring
Selling on E-Bay
Information included in the following forfeiture article is attributed to:
News Release dated May 12, 2010, “ICE, CBP and El Salvador celebrate recovery of pre-Columbian artifacts in joint
investigation into smuggling ring selling on E-Bay.”

On May 12, 2010, the Embassy of El Salvador, Washington, D.C., was the scene of the return of
dozens of pre-Columbian and Mayan artifacts that were seized in the first joint concurrent
investigation by U.S. Immigration and Customs Enforcement (ICE) and the National Civilian Police
of El Salvador into an international smuggling ring that was selling these antiquities on the Internet.




                             Figure 6 Among the Antiquities Returned to El Salvador


                                             SECTION I - OVERVIEW                                                   11
ICE officials presented dozens of cultural items to Ambassador Francisco Alschul in a ceremony that
was streamed live in video to the Salvadoran Foreign Ministry in San Salvador where other pieces
seized in the Salvadoran investigation were on display. The items were all pre-Columbian, many of
them Mayan, and are forbidden for export except with the express permission of the Secretariat of
Culture.

This joint investigation began three years ago when a Customs and Border Protection (CBP) agent at
a Miami mail facility noticed what appeared to be pre-Columbian artifacts coming into the United
States through the mail and destined for Alabama. ICE began an investigation that would involve the
ICE attaché in El Salvador, the Salvadoran national Civilian Police and the ICE Cyber Crimes Center
as well as ICE agents in Miami, Atlanta, Tampa and St. Paul, and CBP officers in Miami.


Also returned at the ceremony were pre-Columbian items recovered in a separate ICE investigation in
Denver involving a consignment store and online sales. El Salvador arrested and prosecuted a man
and wife who were advertising Mayan and pre-Columbian artifacts on electronic sales sites and
selling to customers around the world. There were no Mayan antiquities registered to their names, as
required by Salvadoran law. All of the items seized in this investigation are covered by the export
restrictions put in place in 1995 by El Salvador under a Memorandum of Agreement with the U.S.
Department of State that is designed to curb the pillage of the El Salvador’s heritage.

        "This morning the governments of El Salvador and the United States have sent a strong message to the
        international traffickers of archaeological artifacts looted from El Salvador; we are determined to fight
        this illegal practice which undermines the culture of our countries…These archaeological pieces will
        return to our country and will remain in custody of the Salvadoran people for the benefit and
        enjoyment of the world.”
                                                                               Ambassador Altschul, El Salvador

ICE uses investigative authority to seize cultural property, art and antiquities if they are illegally
imported into the United States. It also investigates the illegal trafficking of artwork, especially
works that have been reported lost or stolen. ICE’s Office of International Affairs, through its 63
attaché offices worldwide, works closely with foreign governments to conduct joint investigations.


     Joint ICE/CBP Investigation Results in $19 Million Settlement in Case of Stolen Painting
                                     The Portrait of Wally

Joint ICE/CBP Investigation (Legacy Customs) Results in $19 Million Settlement in the Case of
the Stolen Portrait of Wally
Information included in the following forfeiture article is attributed to:
Department of Justice News Release, Southern District of new York, dated July 20, 2010, “United States Announces $19
Million Settlement in Case of painting Stolen by Nazi”

In July 2010, ICE announced a settlement agreement with the Leopold Museum Privat-Stiftung (the
“Foundation”) and Lea Bondi Jaray’s estate (the “Estate”) to resolve the civil forfeiture action against
Portrait of Wally (“Wally”), an oil painting by Egon Schiele that a Nazi stole from a Jewish woman


12           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
in 1939. According to the terms of the settlement agreement, the Leopold Museum will pay the
Estate $19 million in exchange for the painting.

Egon Schiele painted Wally in 1912. The painting depicts Valerie Neuzil, Schiele’s primary model
and his lover from about 1911 until he married Edith Anna Harms in 1915. In the decades following
World War II, Schiele became one of the most prominent Austrian artists of the twentieth century.
Bondi, an Austrian Jew and owner of an art gallery, the Wűrthle Gallery, in Vienna, acquired Wally
some time before 1925.




                       Figure 7   Portrait of Wally, painted by Egon Schiele in 1912


In March of 1938, in what is known as the Anschluss, German troops occupied Austria and annexed
it to Germany. Pursuant to German Aryanization laws prohibiting Jews from owning businesses, the
Wűrthle Gallery was designated “non-Aryan” and subject to confiscation. Bondi thereafter sold the
Wűrthle Gallery to a Nazi art collector named Friedrich Welz. In 1939, on the eve of Bondi’s escape
to England, Welz went to Bondi’s apartment to discuss the gallery. He saw Wally hanging on the
wall and demanded that Bondi give it to him. She resisted, as Wally was part of her private collection
and had never been part of the Wűrthle Gallery. Bondi ultimately relented at the behest of her
husband who reminded her that they intended to flee Austria and that Welz could prevent their
escape.

After the war, United States military forces in Austria arrested Welz and seized Wally and other
artworks. These artworks were transferred to the Austrian Government, in accordance with the
policy and practice of the United States military to return property seized from Nazis to the

                                       SECTION I - OVERVIEW                                        13
governments of the countries of origin. Wally was ultimately delivered to the government-owned
Austrian National Gallery in the Belvedere Palace.

In 1953, Dr. Rudolph Leopold, An Austrian collector of artwork by Schiele, visited Bondi during a
trip to London. During this visit, Bondi told Leopold that the painting belonged to her and asked him
to go to the Belvedere and recover it on her behalf. Leopold agreed to help her. Instead of helping
Bondi recover her painting, however, Leopold entered into an agreement with the Belvedere whereby
he exchanged a Schiele painting from his own collection for Wally. When Bondi later discovered
that Leopold had acquired Wally for himself, she retained lawyers to attempt to convince Leopold to
return the painting to her, to no avail. Bondi continued to fight to recover her beloved painting until
her death in 1969.

In 1994, Leopold’s art collection, including Wally, became part of the newly-formed Leopold
Museum. In 1997, the Leopold Museum loaned part of its Schiele collection, including Wally, to
New York’s Museum of Modern Art. Wally was shipped to New York in September 1997.

On September 21, 1999, United States Magistrate Judge James C. Francis IV issued a federal seizure
warrant for Wally based upon a finding of probable cause that the painting was stolen property
imported into the United States in violation of federal law. Pursuant to the warrant, the United States
Customs Service (“legacy Customs,” now ICE and CBP) seized the painting. The next day, the
United States commenced a civil action in order to forfeit Wally and return it to its rightful owner,
Bondi’s estate. The United States Attorney’s Office for the Southern District of new York filed a
civil Complaint in Manhattan federal court and alleged that Wally was forfeitable as stolen property
knowingly imported into, and about to be exported from, the United States in violation of the
National Stolen Property Act, 18 U.S.C. § 2314. The Estate, the Leopold Museum, and New York’s
Museum of Modern Art filed claims to the painting in the forfeiture proceeding. During the litigation,
the Leopold Museum maintained that Welz did not steal the painting and that Leopold did not know
it was stolen property when it was imported into the United States.

       "More than 70 years after Portrait of Wally was stolen, today’s settlement marks another small step
       towards justice for victims of property crimes during WWII. Lea Bondi Jaray and her family were
       steadfast in their long battle to restore their rightful ownership of Portrait of Wally.     Their
       determination provides hope for others who lost precious property and art to Nazi theft…”

                                                                     Preet Bharara, United States Attorney
                                                                            Southern District of New York

On September 30, 2009, United States District Judge Loretta A. Preska issued a 109-page decision on
the parties’ summary judgment motions. The Court rejected the Leopold Museum’s position that
Wally was not stolen property, and concluded that the painting was Bondi’s personal property, that
Welz had stolen it, and that the property remained stolen when it was imported into the United States.
The Court further ruled that the government had made a probable cause showing that Leopold knew
Wally was stolen property when it was imported into the United States. Thus, the only issue to be
resolved at trial was whether the Leopold Museum could overcome the government’s evidence and
provide that Leopold did not know that Wally was stolen property when it was imported into the
United States. The Court scheduled a trial for July 26, 2010, to decide this single issue.




14         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
On July 20, 2010, the U.S. Government, the Estate and the Leopold Museum reached a settlement
agreement that resolves the litigation. Under the terms of the agreement, the Leopold Museum will
pay the Estate $19 million in exchange for Wally. The civil forfeiture action brought public attention
to the struggle of victims of Nazi crimes to recover art and other property stolen by the Nazis.


Customs and Border Protection (CBP)
Department of Homeland Security
 CBP has had a productive year for seizures of cash and drugs at the border and border regions;
             the following represents a sample of their law enforcement seizures.

CBP Officers Seize $1.6 Million in Cash
Information included in the following forfeiture article is attributed to:
News Release dated October 14, 2009, “Border Patrol Agents Seize $1.6 Million in Cash”

On October 9, 2009, Border Patrol Agents responded to reports of suspicious activity. During their
investigation, the agents observed several subjects unloading black luggage bags from the trunk of a
small sedan. When the subjects saw the Border Patrol vehicle approaching, they dropped the bags
back into the trunk and fled. Agents searched the car and found several cellophane-wrapped bundles
of cash in the black bags in the trunk. The bundles contained a total of $1,599,001. The cash was
seized by the U.S. Border Patrol.


CBP Officers in Nogales Seize $204,000 Found in Vehicle
Information included in the following forfeiture article is attributed to:
News Release dated October 27, 2009, “CBP Officers in Nogales Seize $204,000 Found in Vehicle”

In late October 2009, CBP Officers and Nogales Police Officers conducting routine inspections of
vehicles leaving the United States selected a 2005 Volkswagen Jetta for examination. The vehicle
was occupied by two men from Sonora, Mexico. While conducting the inspection, CBP Officers
discovered several packages of U.S. currency hidden in a compartment in the dash of the vehicle.
Officers removed a total of 17 packages that contained just over $204,000. The money was seized
and both subjects were arrested and turned over to ICE for further investigation.


CBP Officers Seize $300,000 in Undeclared Currency at Arizona Border
Information included in the following forfeiture article is attributed to:
News Release dated December 15, 2009, “CBP Officers Seize $300,000 in Undeclared Currency at Arizona Border”

In mid December 2009, U.S. Customs and Border Protection Officers working at the Mariposa,
Arizona port of entry discovered $300,032 in undeclared currency hidden inside a suitcase. CBP
Officers conducting routine inspections of vehicles leaving the United States, selected a 1994 Chevy
pickup truck. The truck was occupied by two Mexican men, ages 19 and 46. While conducting their
inspection, CBP officers opened a suitcase that was inside the truck and discovered 30 packages
wrapped in black electrical tape. After a CBP Currency/Weapons Detector Dog alerted to the
suitcase, officers removed the packages and seized $300,032 as undeclared currency.




                                             SECTION I - OVERVIEW                                              15
CBP Officers Seize $133,412 in Undeclared Currency at Arizona Port of Entry
Information included in the following forfeiture article is attributed to:
News Release dated December 4, 2009, “CBP Officers in Arizona Seize $133,412 in Undeclared Currency”

In early December 2009, CBP Officers conducting routine inspections of vehicles leaving the United
States selected a 2001 Volkswagen Beetle for examination. The vehicle was occupied by a 22-year-
old man from Sonora, Mexico. While conducting their inspection, CBP Officers discovered several
packages of U.S. currency hidden in the rear quarter panel of the vehicle. Officers removed
numerous packages of cash totaling $133,412. The cash was seized.




                Figure 8 $133,412 Undeclared Currency Found in Rear Quarter Panel of Vehicle



CBP Officers Seize $305,995 at the Brownsville Port of Entry
Information included in the following forfeiture article is attributed to:
News Release dated June 26, 2010, “CBP Officers, Border Patrol Agents Seize $300k in Outbound Enforcement
Operation”

In late June 2010, CBP and Border Patrol Officers, conducting outbound enforcement operations at
the Brownsville port of entry, seized $305,995 in U.S. currency. Working outbound enforcement
operations at the Gateway International Bridge, these officers came into contact with a 2000
Oldsmobile Alero, with a 21-year old Mexican national driver, as it attempted to exit the United
States and enter Mexico. The vehicle was selected for further inspection. A search of the
Oldsmobile resulted in the discovery of 12 packages of U.S. currency hidden within the vehicle.
CBP Officers seized the currency and the vehicle.

CBP Officers Seize $70,000 Found in Spare Tire
Information included in the following forfeiture article is attributed to:
News Release dated December 15, 2009, “CBP Southbound Operations in Douglas Recovers $70,000 Found in Tires”

In mid December 2009, CBP Officers screening traffic going into Mexico as part of a Southbound
Operation selected a 2008 Chevrolet Cheyenne being driven by a 28-year-old man from Magdalena,

16           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Sonora, Mexico. Utilizing high-tech equipment, CBP officers discovered that the man was
attempting to smuggle $70,000 out of the United States by concealing the money in the spare tire of
the vehicle. The officers seized the currency.




                       Figure 9       $70,000 in Currency Concealed in Spare Tire of Vehicle


U. S. Secret Service
Department of Homeland Security

In Rem Forfeiture of $65 Million in Funds Seized from Bank Accounts Associated with the “Ad
Surf Daily (ASD)” Ponzi Scheme
Information included in the following forfeiture article is attributed to:
United States Attorney’s Office, District of Columbia, Press Release: undated, “Final Order of Forfeiture Issued in ASD
Civil Forfeiture Action;” and
United States District Court for the District of Columbia, Complaint for Forfeiture In Rem, Case No. 1:08-cv-01345,
dated August 5, 2008.

In January 2010, approximately $65 million in funds seized from bank accounts associated with the
“Ad Surf Daily (ASD)” Ponzi-style fraud case were forfeited to the U.S. Government. The
government anticipates a number of victims’ claims against these forfeitures.

In July 2008, agents working as part of a Secret Service task force received information from a
reliable source that ASD was a pyramid or Ponzi scheme operating via the Internet. The ensuing
investigation confirmed that ASD was operating over the Internet and that the pertinent site claimed
that members could earn large profits simply by paying fees to advertise web pages, surf other
members’ web pages, and recruit more members to do the same.

The In Rem Civil Complaint asserted that ASD was operating a paid auto-surfing program and that
program was merely a Ponzi scheme. Although ASD was careful to avoid callings its members
“investors,” in an apparent effort to avoid regulatory scrutiny, ASD promoted paid membership by
offering its members a 125% return on their membership fees. In addition, ASD encouraged
members to recruit new members by paying commissions for referrals. ASD paid the source of a
referral a percentage of each newly referred member’s fees.
                                              SECTION I - OVERVIEW                                                   17
According to the In Rem Civil Complaint, the investigation revealed that ASD did not appear to sell
any independent products or services sufficient to generate an income stream needed to support the
rebates and commissions that it promised its members. Further, the “advertisers” were not paying
ASD for advertising services at all; instead, they were paying ASD with the expectation that ASD
would provide a full rebate and additional revenue. Thus, absent continuous membership growth (an
impossibility) ASD had no means to generate the returns it represented.

Public documents assert that ASD and others devised a scheme to create an Internet-based Ponzi
scheme in violation of Title 18 U.S.C. §371 (conspiracy to commit wire fraud), and that the forfeited
properties constitute proceeds of the offenses or property involved in financial transactions with wire
fraud proceeds that are prohibited by federal anti—money laundering statutes.


In Rem Forfeiture of $14 Million in Funds Seized from Bank Accounts Associated with the
“Golden Panda” Ponzi Scheme
Information included in the following forfeiture article is attributed to:
United States District Court for the District of Columbia, Motion for Entry of Default Judgment and Order of Forfeiture,
Civil Action No.: 08-cv-01345 (RMC), filed June 1, 2009; and
U.S. Department of Justice Jeffrey A. Taylor, United States Attorney, District of Columbia, undated re: Stpember 22,
2008 et al.

In a matter related to the Ad Surf Daily (ASD) matter, just above, in June 2009, a Motion for Entry
of Default Judgment and Order of Forfeiture was entered against five (5) defendant bank accounts
that were seized from Bank of America, which had been controlled by operators of the Golden Panda
Ad Builder operation. Golden Panda was a spinoff Ponzi scheme of the ASD Ponzi scheme
described above, targeting primarily Chinese clients. The government had alleged that the Golden
Panda funds it seized and sued for In Rem forfeiture constituted proceeds of several criminal
offenses, including a wire fraud scheme involving unregistered securities.


U. S. Coast Guard
Department of Homeland Security

The U.S. Coast Guard continues its close working relationship with the legacy Customs bureaus and
functions in a member-bureau capacity. The Coast Guard also maintains a close working relationship
with the Drug Enforcement Administration (DEA) of the Department of Justice, assisting with drug
boat interceptions on the high seas which are then turned over to the Department of Justice for
prosecution.

Coast Guard Inspects Boat for Safety, Seizes 17 Bricks of Marijuana
Information included in the following forfeiture article is attributed to:
United States Coast Guard Press Release: June 14, 2010, “Coast Guard crew intercepts boat with 17 bricks of
marijuana” Website: http://www.piersystem.com/go/doc/586/656679/

In June 2010, crewmembers from the U.S. Coast Guard Cutter Dolphin intercepted nearly 300
pounds of marijuana from a vessel west of Bimini, Bahamas. While conducting a routine patrol, the
crew of the Dolphin conducted a boarding of a 25-foot cuddy cabin vessels west of Bimini. During
an initial safety inspection, members of the boarding team located about 300 pounds of marijuana in

18           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
the vessel’s forward compartment. The U.S. Coast Guard Cutter Dolphin is an 87-foot patrol boat
home ported in Miami.




               Figure 10    17 Bricks of Marijuana Seized by the U.S. Coast Guard Cutter, Dolphin


Coast Guard Intercepts Vessel, Seizes 800 Pounds of Marijuana
Information included in the following forfeiture article is attributed to:
United States Coast Guard Press Release: May 30, 2010, “Coast Guard seizes 800 pounds of marijuana” Website:
http://www.piersystem.com/go/doc/586/573703/

In May 2010, crewmembers from the Coast Guard Cutter Diamondback offloaded 47 bricks of
marijuana, nearly 800 pounds, at Coast Guard Station Fort Lauderdale, Florida. Following reports of
a suspicious vessel traveling west from Bimini, Bahamas, a 33-foot Special Purpose Law
Enforcement Craft from Station Fort Lauderdale and Diamondback crews located a 20-foot, white-
hulled, U.S. flagged vessel. The U.S. Coast Guard crews boarded the vessel to conduct an initial
safety inspection and made a plain view discovery of nearly 800 pounds of marijuana worth an
estimated street value of over $700,000. The two suspected smugglers aboard the vessel were
detained and taken aboard the Diamondback and later transferred to U.S. Customs and Border Patrol
(CBP). The U.S. Coast Guard Cutter Diamondback is an 87-foot coastal patrol boat home ported in
Miami.

Coast Guard Boards Vessel, Seizes 5,250 Pounds of Cocaine
Information included in the following forfeiture article is attributed to:
United States Coast Guard Press Release: May 07, 2010, “Coast Guard Cutter Dallas seizes shipment of cocaine in
Eastern Pacific Ocean” Website: http://www.piersystem.com/go/doc/586/541683/

In May 2010, the U.S. Coast Guard Cutter (USCGC) Dallas seized a shipment of cocaine hidden
aboard an 82-foot Mexican-flagged fishing vessel while on patrol in the Eastern Pacific. The
cocaine, weighing an estimated 5,250 pounds, was concealed in a hidden compartment that was built
into the fishing vessel’s fuel tanks. The advanced method of concealment required a detailed search
of the vessel that included shifting the vessel’s fuel load to identify the hidden compartment.

The boarding of the Mexican-flagged fishing vessel was conducted under the authority and
jurisdiction of Mexico. The Mexican Navy subsequently took custody of the vessel, contraband and
crew, all of whom were Mexican nationals.

The U.S. Coast Guard Cutter Dallas is a 378-foot Hamilton Class Cutter, one of 12 high-endurance
Hamilton Class Cutters in the Coast Guard fleet. The USCGC Dallas is home ported in Charleston,
South Carolina.



                                             SECTION I - OVERVIEW                                                 19
Program and Fund Highlights

The Treasury Forfeiture Fund is a “special receipt account.” Such accounts represent federal fund
collections earmarked by law for a specific purpose. The enabling legislation for the Treasury
Forfeiture Fund (31 U.S.C. § 9703) defines those purposes for which Treasury forfeiture revenue may
be used. Once property or cash is seized, there is a forfeiture process. Upon forfeiture, seized
currency, initially deposited into a suspense account, or holding account, is transferred to the Fund as
forfeited revenue. Once forfeited, physical properties are sold and the proceeds are deposited into the
Fund as forfeited revenue. It is this forfeiture revenue that comprises the budget authority for
meeting expenses of running Treasury’s forfeiture program.

Expenses of the Fund are set in a relative priority so that unavoidable or “mandatory” costs are met
first as a matter of policy. Expenses may not exceed revenue in the Fund. The Fund has several
different spending authorities. Each of them is described below.

Mandatory Authority

The mandatory authority items are generally used to meet “business expenses” of the Fund, including
expenses of storing and maintaining seized and forfeited assets, valid liens and mortgages,
investigative expenses incurred in pursuing a seizure, information and inventory systems, and certain
costs of local police agencies incurred in joint law enforcement operations. Following forfeiture,
equitable shares are paid to state and local law enforcement agencies that contributed to the seizure
activity at a level proportionate to their involvement.

It is a strategic goal of the Fund to emphasize and monitor high impact forfeitures. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives. These authorities
include the Purchase of Evidence and Information, expenses associated with Joint Operations,
Investigative Expenses Leading to Seizure, and Asset Identification and Removal Groups. In recent
years, funding provided to computer forensic investigative tools has yielded high impact results.

Secretary’s Enforcement Fund

The Secretary’s Enforcement Fund (SEF) is derived from equitable shares received from the Justice
Department’s forfeiture fund for work done by Treasury law enforcement bureaus leading to Justice
forfeitures. SEF revenue is available for federal law enforcement purposes of any Treasury law
enforcement organization or law enforcement bureau that participates in the Treasury Forfeiture
Fund. In FY 2010, the Fund expensed $2.9 million in SEF authority as compared to $20.8 million in
FY 2009, a decrease of $17.9 million or 86 percent. These resources were used to meet a variety of
law enforcement needs of member bureaus.

Super Surplus

Super Surplus represents the remaining unobligated balance after an amount is reserved for Fund
operations in the next fiscal year. Super Surplus can be used for any federal law enforcement
purpose. In FY 2010, the Fund expensed $78.9 million in Super Surplus authority as compared to
$42.8 million in FY 2009, an increase of over 84 percent.

20         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Program Performance

Strategic View

Fund management continues to focus on strategic cases and investigations that result in high-impact
forfeitures. We believe this approach affects the greatest damage to criminal organizations while
accomplishing the ultimate objective – to disrupt and dismantle criminal activity. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives including
Purchase of Evidence and Information, expenses associated with Joint Operations, Investigative
Expenses Leading to Seizure, Asset Identification and Removal teams and state-of-the-art Computer
Forensics capability. FY 2010 was a banner year for major case forfeiture deposits.

In addition, the Fund continues to support record levels of sharing of federal forfeitures with the state
and local and foreign governments that contributed to the successful seizure and forfeiture activity of
the Fund. Reflecting the higher revenue level for FY 2010, the Fund expensed $454.6 million for
equitable sharing expenses in FY 2010 as compared to the $129.1 million expensed in FY 2009.
Included in these sums are $131.7 million and $4.1 million for equitable sharing expenses with
foreign countries that assisted in cases during FY 2010 and FY 2009, respectively. These are critical
resources afforded by policy of the Treasury Forfeiture Fund to protect and preserve the valuable
working relationships between our federal law enforcement bureaus and the critically important state,
local and foreign law enforcement agencies that work with them in an investigative capacity day-in
and day-out.

Strategic Mission and Goal

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The
goal of the Treasury Forfeiture Fund is to support the Department of the Treasury’s national asset
forfeiture program in a manner that results in federal law enforcement’s continued and effective use
of asset forfeiture as a high-impact law enforcement sanction to disrupt and dismantle criminal
activity. To achieve our mission and goal, the program must be administered in a fiscally responsible
manner that seeks to minimize the administrative costs incurred, thereby maximizing the benefits for
law enforcement and the society it protects.

Multi-Departmental Fund

The Treasury Forfeiture Fund continued in its capacity as a multi-Departmental Fund in FY 2010,
representing the interests of law enforcement components of the Departments of Treasury and
Homeland Security. FY 2010 posed some continued management challenges including continued
oversight of increasing general property contract expenses associated with higher revenue levels. In
addition, commensurate with the high revenue year, there were additional expenses incurred by the
bureaus. In the midst of this period of growth and change, the Fund’s family of law enforcement
bureaus continued their hard work of federal law enforcement and the application of asset forfeiture
as a sanction to bring criminals to justice.

FY 2010 continued a pattern of robust revenue years with regular revenue of $1.1 billion from all
sources, more than doubling the FY 2009 banner year of $527.2 million. As we enter fiscal year
                                        SECTION I - OVERVIEW                                          21
2010, the Fund remains focused on support for strategic investigative initiatives that will have the
greatest impact on national and international criminal enterprise including valuable training and
investigative expense funding which emphasizes high impact cases.

Performance Measure

In FY 2010, the Fund measured performance through the use of the following performance measure:
Percent of forfeited cash proceeds resulting from high-impact cases. This measures the percentage of
forfeited cash proceeds resulting from high-impact cases (those with currency seizures in excess of
$100,000). Focusing on strategic cases and investigations which result in high-impact seizures will
affect the greatest damage to criminal organizations while accomplishing the ultimate objective – to
disrupt and dismantle criminal activity.

Results

The Fund performance measure and result for FY 2010 is as follows:


                                                       FY 2009           FY 2010           FY 2010
           Performance Measure                          Actual            Target            Actual

Percent of forfeited cash proceeds resulting from        87.65%             75%             93.11%
high-impact cases

A target of 75 percent high-impact cases was set for FY 2010. This is a fixed target for the Fund
designed to afford our law enforcement bureaus the opportunity to undertake smaller seizure activity
that is important to the overall federal law enforcement mission. The final percentage for FY 2010
was 93.11 percent, well above target. This compares with our FY 2008 and FY 2009 performance of
86.91 percent and 87.65 percent, respectively. The performance of our member bureaus is excellent
and reflects Fund management’s longstanding emphasis on high-impact forfeiture strategies as well
as the use of Fund authorities to assist member bureaus with larger cases that may take longer or
require additional resources not otherwise available. This measure was put into effect in FY 2001.

This measure is calculated by dividing the total amount of forfeited cash proceeds from cases greater
than $100,000 by the total amount of forfeited cash proceeds for all cases.




22         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Financial Statement Highlights

The following provides a brief explanation for each major section of the audited financial statements
accompanying this report for the fiscal year ended September 30, 2010.

These statements have been prepared to disclose the financial position of the Fund, its net costs,
changes in net position, and budgetary resources, pursuant to the requirements of the Chief Financial
Officers Act of 1990 and the Government Management Reform Act of 1994 (GMRA). While the
financial statements have been prepared from the books and records of the Fund in accordance with
the formats prescribed by the Office of Management and Budget, the statements are different from
the financial reports used to monitor and control budgetary resources that are prepared from the same
books and records and are subsequently presented in federal budget documents. Further, the notes to
the financial statements and the independent auditor’s opinion and reports on internal control over
financial reporting, and compliance with laws and regulations are also integral components to
understanding fully the financial highlights of Fund operations described in this chapter.

Statements: Changes in Net Position

Follows are brief highlights from the Statements of Changes in Net Position for FY 2010 and 2009.

Net Position – End of Year. For FY 2010, the Net Position for the Fund at the end of the year, an
indicator of the future capability to support ongoing operations of the Fund, totaled $986.1 million
versus $594.5 million at the end of FY 2009. Both years closed with a strong and viable net position
with which to commence the next fiscal year’s operations.

Total Gross Non-Exchange Revenues. This line item on the Statements of Changes in Net Position
is the best indicator of regular “business-type” income of the account on an annual basis. For a
number of years, Fund management forecast $250.0 million for the Fund from regular seizure and
forfeiture activities of our participating bureaus. For FY 2010, the Fund closed with $1.1 billion in
Gross Non-Exchange Revenues versus a total for FY 2009 of $527.2 million, more than doubling the
prior year revenue level.

Proceeds from Participating with other Federal Agencies. This line item on the Statements of
Changes in Net Position indicates revenue earned from the participation of Treasury Forfeiture Fund
law enforcement bureaus in the seizures leading to forfeiture of bureaus that participate in the
Department of Justice Assets Forfeiture Fund or with the forfeiture fund of the U.S. Postal Service
(Postal Service). It is noted that this category of revenue is recognized when received on deposit by
the Treasury Forfeiture Fund. Therefore, there is no accrual recorded on the Fund’s financial
statements for this category of revenue.

As of the close of FY 2010, Treasury Forfeiture Fund bureaus earned a total of $160.7 million in
revenue from participation in the seizures leading to forfeiture of the Justice and Postal Service
forfeiture funds as compared to a total of $20.5 million during FY 2009. Fund management
continues to work with the Department of Justice to identify delays and/or explain downward
adjustments to percentages associated with Reverse Asset Sharing payments owed to the Treasury
Forfeiture Fund. This revenue affords Treasury management significant funding flexibilities for our
participating agencies as the authority is broad and not confined to funding program costs; it can be
used for any law enforcement purpose of our participating bureaus.

                                       SECTION I - OVERVIEW                                         23
Cost of Operations. For FY 2010, the Cost of Operations totaled $168 million, up from $150
million in FY 2009.

Investment Interest Income. The Fund is authorized to invest cash balances in Treasury securities.
As of September 30, 2010, investments totaled $2.1 billion, up from $1.2 billion invested as of
September 30, 2009. Given the higher investment balance but continuing negligible interest rates on
Treasury securities during FY 2010, investment income totaled only $1.4 million in FY 2010 as
compared to $1.3 million in FY 2009.

Equitable Sharing with Federal, State and Local Governments, and Foreign Countries. Each
year, the Fund pays tens of millions of dollars to state and local law enforcement agencies, and
foreign governments, for their participation in seizures that lead to forfeitures of the Treasury
Forfeiture Fund. State and local law enforcement agencies can use these resources to augment their
law enforcement budgets to fight crime in their jurisdictions. Without these funds, budgets of the
local municipalities would be taxed to provide these important resources or the need would go unmet.
During FY 2010, the Fund shared a total of $325.2 million with other federal, state and local law
enforcement agencies, and another $131.7 million with foreign countries. This compares with $134.6
million shared with other federal, state and local law enforcement agencies during FY 2009, and
another $4.1 million with foreign countries in FY 2009.

Victim Restitution. During FY 2010, the Fund paid $4.0 million in restitution to victims as
compared to $7.1 million in FY 2009.

Summary of Statements of Changes in Net Position. The Fund closed with a strong net position in
FY 2010. Management will continue to emphasize high-impact cases by participating law
enforcement bureaus. The FY 2010 performance with forfeiture revenue earnings of over $1.1
billion from all sources and a high rate of high-impact cases is truly a credit to the dedicated law
enforcement personnel of our participating law enforcement bureaus.

Statements: Net Cost

Costs of the Forfeiture Program – Intra-governmental. After revenue is applied toward policy
mandates such as equitable sharing, shown in the Statements of Changes in Net Position as negative
revenue or applied non-exchange revenue, the remaining financing supports the law enforcement
activities of the Fund and pays for the storage of seized and forfeited property and sales associated
with the disposition of forfeited property.

On the Statements of Net Cost, the Net Cost of Operations totaled $168.0 million in FY 2010, up
from $150.0 million in FY 2009.

Intra-governmental. This cost category totaled $105.3 million in FY 2010, up from $90.2 million in
FY 2009. The amounts represent costs incurred by participating bureaus in running their respective
forfeiture programs.

National Seized Property Contracts. One of the largest program costs of the Fund is the storage,
maintenance and disposal of real and personal property. During FY 2010, general property was
maintained by VSE Corporation and real property was maintained by EG&G Technical Services,
both contracts of the Department of the Treasury. In FY 2010, expenses of these two contracts

24         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
totaled $51.2 million, up from expenses of the two contracts in FY 2009 of $49.1 million.

Balance Sheet

Assets, Liabilities and Net Position

Total assets of the Fund increased in FY 2010 to $2.3 billion, up from $1.4 billion in FY 2009, an
increase in asset value of over 62 percent. If seized currency, which is an asset in the custody of the
government but not yet owned by the government, is backed out of both figures, the adjusted total
assets of the Fund increased to $1.5 billion in FY 2010, up from $808.0 million in FY 2009. During
FY 2010, total liabilities of the Fund increased to $1.3 billion, up from $812.5 million in FY 2009. If
seized currency, which is also shown as a liability because it is not yet owned by the government, is
backed out of both figures, the adjusted total liabilities of the Fund increased to $508.0 million in FY
2010, up from $213.5 million in FY 2009.

With dramatically increasing assets and more moderately increasing costs, the Cumulative Results of
Operations, i.e., retained earnings, increased at the end of FY 2010 to a total of $986.1 million, up
from $594.5 million at the end of FY 2009.

Financial and Program Performance - What is needed and planned. OMB Circular A-136,
Financial Reporting Requirements, requires that agencies include an explanation of what needs to be
done and what is being planned to improve financial or program performance.

Auditor’s Findings

FY 2010 Audit. The Fund’s independent auditors have given the FY 2010 financial statements an
Unqualified Opinion with no material weaknesses or other significant deficiencies in internal control
over financial reporting identified. There are no management letter findings for FY 2010.

Summary of Financial Statement Highlights

Net Position. To summarize, Fund management concluded a highly productive FY 2010 “in the
black,” with the necessary resources to commence the business of the asset forfeiture program for FY
2011. Fund management declared a Super Surplus from FY 2010 operations and will work to
recognize the hard work of our participating bureaus in the allocation of these resources.




                                        SECTION I - OVERVIEW                                         25
A Look Forward


Fund management will continue to work with our large and diverse array of federal law enforcement
bureaus as they undertake increasingly sophisticated methods and global effort to secure the financial
and commercial markets of the nation and the world given the interdependence of financial systems.
In addition, our bureaus support immigration enforcement that is designed to identify illegal
smuggling to deter its impact on the nation’s financial infrastructure and terrorism initiatives and to
ensure that human smugglers do not harm unsuspecting victims keen on seeking a new if illegal start
in the United States.      Emphasis will continue to be placed on ever-evolving state-of-the-art
investigative techniques, high-impact major case initiatives and training to support these areas of
emphasis. This has and will continue to be the key to the growing success and law enforcement reach
of the Treasury Forfeiture Fund.

Limitations of the Financial Statements. As required by OMB Circular A-136, Fund management
makes the following statements regarding the limitations of the financial statements:

    The financial statements have been prepared to report the financial position and results of
     operations of the entity, pursuant to the requirements of 31 USC § 3515(b).

    While the statements have been prepared from the books and records of the entity in accordance
     with the formats prescribed by OMB, the statements are in addition to the financial reports used
     to monitor and control budgetary resources which are prepared from the same books and records.

    The statements should be read with the realization that they are for a component of the U.S.
     government, a sovereign entity. One implication of this is that liabilities cannot be liquidated
     without legislation that provides resources to do so.




26           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
          SECTION II

INDEPENDENT AUDITOR’S REPORTS
THIS PAGE INTENTIONALLY LEFT BLANK
gka, P.C.                                                       Certified Public Accountants | Management Consultants



1015 18th Street, NW                  Independent Auditor's Report on Financial Statements
      Suite 200
  Washington, DC
        20036             Inspector General
                          United States Department of the Treasury
  Phone: 202-857-1777
   Fax: 202-857-1778      Washington, D.C.
Website: www.gkacpa.com


                          We have audited the Principal Statements (balance sheets and the related
                          statements of net cost, changes in net position, and budgetary resources, hereinafter
                          referred to as “financial statements”) of the Department of the Treasury Forfeiture
                          Fund (the Fund) as of and for the years ended September 30, 2010 and 2009. These
                          financial statements are the responsibility of Fund Management. Our responsibility
                          is to express an opinion on these financial statements based on our audits.

                          We conducted our audits in accordance with auditing standards generally accepted
                          in the United States of America; the standards applicable to financial audits
                          contained in Government Auditing Standards, issued by the Comptroller General of
                          the United States; and applicable provisions of Office of Management and Budget
                          (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
                          as amended. Those standards require that we plan and perform the audits to obtain
                          reasonable assurance about whether the financial statements are free of material
                          misstatement. An audit includes examining, on a test basis, evidence supporting the
                          amounts and disclosures in the financial statements. An audit also includes
                          assessing the accounting principles used and significant estimates made by Fund
                          Management, as well as evaluating the overall financial statement presentation. We
                          believe that our audits provide a reasonable basis for our opinion.

                          In our opinion, the financial statements referred to above present fairly, in all
                          material respects, the financial position of the Fund as of September 30, 2010 and
                          2009, and its net costs, changes in net position, and budgetary resources, for the
                          years then ended, in conformity with accounting principles generally accepted in
                          the United States of America.

                          In accordance with Government Auditing Standards, we have also issued a report
                          dated October 29, 2010, on our consideration of the Fund's internal control over
                          financial reporting and a report dated October 29, 2010, on our tests of its
                          compliance with laws, regulations, and contracts. These reports are an integral part
                          of an audit performed in accordance with Government Auditing Standards, and
                          these reports should be read in conjunction with this report in considering the
                          results of our audits.




                                                                  Member of the American Institute of Certified Public Accountants
Our audits were conducted for the purpose of forming an opinion on the financial statements referred
to in the first paragraph of this report as a whole. The information presented in Section I: Overview,
Section IV: Required Supplemental Information and Section V: Other Accompanying Information is
not a required part of the financial statements but is supplementary information required by
accounting principles generally accepted in the United States of America, OMB Circular A-136,
Financial Reporting Requirements, or the Treasury Forfeiture Fund Act of 1992. We applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of the supplementary information. However, such information has not
been subjected to the auditing procedures applied in the audits of the financial statements and,
accordingly, we express no opinion on it.




October 29, 2010




28         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
gka, P.C.                                                        Certified Public Accountants | Management Consultants



1015 18th Street, NW       Independent Auditor's Report on Internal Control over Financial Reporting
      Suite 200
  Washington, DC          Inspector General
        20036             United States Department of the Treasury
                          Washington, D.C.
  Phone: 202-857-1777
   Fax: 202-857-1778
Website: www.gkacpa.com   We have audited the Principal Statements (balance sheet and the related statements
                          of net cost, changes in net position, and budgetary resources, hereinafter referred to
                          as “financial statements”) of the Department of the Treasury Forfeiture Fund (the
                          Fund) as of and for the year ended September 30, 2010, and have issued our report
                          thereon dated October 29, 2010. We conducted our audit in accordance with
                          auditing standards generally accepted in the United States of America; the
                          standards applicable to financial audits contained in Government Auditing
                          Standards, issued by the Comptroller General of the United States; and, applicable
                          provisions of Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
                          Requirements for Federal Financial Statements, as amended.

                          In planning and performing our audit, we considered the Fund’s internal control
                          over financial reporting by obtaining an understanding of the design effectiveness
                          of the Fund’s internal control, determining whether these internal controls had been
                          placed in operation, assessing control risk, and performing tests of controls as a
                          basis for designing our auditing procedures for the purpose of expressing our
                          opinion on the financial statements. We limited our internal control testing to those
                          controls necessary to achieve the objectives described in OMB Bulletin No. 07-04
                          and Government Auditing Standards. We did not test all internal controls relevant
                          to operating objectives as broadly defined by the Federal Managers’ Financial
                          Integrity Act of 1982, such as those controls relevant to ensuring efficient
                          operations. The objective of our audit was not to express an opinion on the
                          effectiveness of the Fund’s internal control over financial reporting. Consequently,
                          we do not express an opinion on internal control over financial reporting.

                          Our consideration of the internal control over financial reporting was for the
                          limited purpose described in the preceding paragraph and was not designed to
                          identify all deficiencies in internal control over financial reporting that might be
                          deficiencies, significant deficiencies or material weaknesses. Under standards
                          issued by the American Institute of Certified Public Accountants, a deficiency in
                          internal control exists when the design or operation of a control does not allow
                          management or employees, in the normal course of performing their assigned
                          functions, to prevent, or detect and correct misstatements on a timely basis. A
                          significant deficiency is a deficiency or combination of deficiencies, in internal
                          control that is less severe than a material weakness, yet important enough to merit
                          attention by those charged with governance. A material weakness is a deficiency, or
                          a combination of deficiencies, in internal control such that there is a reasonable
                          possibility that a material misstatement of the entity’s financial statements will not
                          be prevented, or detected and corrected on a timely basis.
                                                                   Member of the American Institute of Certified Public Accountants
We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 29, 2010




30         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
gka, P.C.                                                        Certified Public Accountants | Management Consultants



1015 18th Street, NW        Independent Auditor's Report on Compliance with Laws and Regulations
      Suite 200
  Washington, DC          Inspector General
        20036             United States Department of the Treasury
                          Washington, D.C.
  Phone: 202-857-1777
   Fax: 202-857-1778
Website: www.gkacpa.com   We have audited the Principal Statements (balance sheet and the related statements
                          of net cost, changes in net position, and budgetary resources, hereinafter referred to
                          as “financial statements”) of the Department of the Treasury Forfeiture Fund (the
                          Fund) as of and for the year ended September 30, 2010, and have issued our report
                          thereon dated October 29, 2010. We conducted our audit in accordance with
                          auditing standards generally accepted in the United States of America; the
                          standards applicable to financial audits contained in Government Auditing
                          Standards, issued by the Comptroller General of the United States; and, applicable
                          provisions of Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
                          Requirements for Federal Financial Statements, as amended.

                          The management of the Fund is responsible for complying with laws, regulations,
                          and contracts applicable to the Fund. As part of obtaining reasonable assurance
                          about whether the Fund’s financial statements are free of material misstatement, we
                          performed tests of its compliance with certain provisions of laws, regulations, and
                          contracts, noncompliance with which could have a direct and material effect on the
                          determination of financial statement amounts, and certain other laws and
                          regulations specified in OMB Bulletin No. 07-04, including the requirements
                          referred to in Section 803(a) of the Federal Financial Management Improvement
                          Act (FFMIA) of 1996. We limited our tests of compliance to these provisions and
                          we did not test compliance with all laws, regulations, and contracts applicable to
                          the Fund. Providing an opinion on compliance with certain provisions of laws,
                          regulations, and contracts was not an objective of our audit and, accordingly, we do
                          not express such an opinion.

                          The results of our tests of compliance disclosed no instances of noncompliance
                          with laws, regulations, and contracts discussed in the preceding paragraph,
                          exclusive of FFMIA, that are required to be reported under Government Auditing
                          Standards and OMB Bulletin No. 07-04.

                          Under FFMIA, we are required to report whether the Fund’s financial management
                          systems substantially comply with the Federal financial management systems
                          requirements, applicable Federal accounting standards, and the United States
                          Government Standard General Ledger at the transaction level. To meet this
                          requirement, we performed tests of compliance with FFMIA section 803(a)
                          requirements.
The results of our tests of FFMIA disclosed no instances in which the Fund’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General, and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 29, 2010




32         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
          SECTION III

FINANCIAL STATEMENTS AND NOTES
                          Department of the Treasury Forfeiture Fund
                                     BALANCE SHEETS
                              As of September 30, 2010 and 2009
                                     (Dollars in thousands)

                                                                                        2010                2009
Assets:

Intragovernmental:
       Fund balance with Treasury                                             $       33,490        $      30,676
       Investments and related interest receivable (Note 3)                      2,095,911            1,227,862
       Advances (Note 5)                                                                     266                 218
   Total Intragovernmental                                                       2,129,667            1,258,756
       Cash and other monetary assets (Note 6)                                         90,212               95,044
       Accounts Receivable                                                                   561              1,282
                                                                                       90,773               96,326
      Forfeited property (Note 7)
         Held for sale, net of mortgages, liens and claims                             61,449              49,756
         To be shared with federal, state or local, or foreign governments               1,585               2,215
      Total forfeited property, net of mortgages, liens and claims                     63,034              51,971
Total Assets                                                                   $2,283,474           $1,407,053 

Liabilities:

  Intragovernmental:
      Distributions payable
         Other federal agencies                                               $                 ‐    $       1,949
      Accounts payable                                                                58,577                38,882
 Total Intragovernmental                                                              58,577                40,831

      Seized currency and other monetary instruments (Note 9)                       789,437               599,087
      Distributions payable (Note 10)
          State and local agencies and foreign governments                          375,813               108,372
      Accounts payable                                                                10,542                12,279
      Deferred revenue from forfeited assets                                          63,034                51,971

Total Liabilities                                                                 1,297,403               812,540

Net Position:
  Cumulative results of operations (Note 11)                                        986,071               594,513

Total Liabilities and Net Position                                           $2,283,474  $1,407,053 
                The accompanying notes are an integral part of these financial statements.

                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                           33
                           Department of the Treasury Forfeiture Fund
                                  STATEMENTS OF NET COST
                         For the years ended September 30, 2010 and 2009
                                        (Dollars in thousands)

                                                                                    2010               2009
Program:                                                                                            
ENFORCEMENT
                                                                                                    
  Intragovernmental:
       Seizure investigative costs and asset management                      $      65,761      $     56,051
       Other asset related contract services                                           9,178             9,780
       Data systems, training and others                                             30,334            24,377

  Total Intragovernmental                                                        105,273              90,208 

  With the Public:
     National contract services seized property and other                           51,207             49,100
     Joint operations                                                               11,549             10,690

  Total with the Public                                                             62,756             59,790


Net Cost of Operations                                                    $      168,029        $   149,998
                                                                                                     




              The accompanying notes are an integral part of these financial statements.


   34         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
                           Department of the Treasury Forfeiture Fund
                      STATEMENTS OF CHANGES IN NET POSITION
                       For the years ended September 30, 2010 and 2009
                                      (Dollars in thousands)

                                                                                       2010        2009
                                                                                                  
Net Position – Beginning of year                                                $ 594,513      $ 426,779
Financing Sources (Non-Exchange Revenues):
   Intragovernmental
        Investment interest income                                                     1,431       1,345
   Public
        Forfeited currency and monetary instruments                            914,227           479,494
        Sales of forfeited property net of mortgages and claims                  45,540            37,242
        Proceeds from participating with other federal agencies                 160,717           20,485
        Value of property transferred in equitable sharing                        4,019             8,012
        Payments in lieu of forfeiture, net of refund (Note 19)                (29,949)          (27,608)
        Reimbursed costs                                                          3,115             4,026
        Other                                                                ____3,245         ____4,180
   Total Gross Non-Exchange Revenues                                       __1,102,345         __527,176

Less: Equitable Sharing
  Intragovernmental
      Federal                                                                        (2,327)      (9,594)
  Public
      State and local agencies                                                (322,887)   (125,009)
      Foreign countries                                                       (131,730)     (4,096)
      Victim restitution                                                     _ _(4,019) ___(7,143)
                                                                              (458,636) __(136,248)
   Total Equitable Sharing                                                    (460,963) __(145,842)

Total Non-Exchange Revenues, Net                                                 _641,382      __381,334

Transfers –Out
  Intragovernmental
  Super surplus (Note 13)                                                        (78,895)        (42,771)
   Secretary’s enforcement fund (Note 14)                                         (2,900)        (20,831)
Total Transfers Out                                                              (81,795)      _ (63,602)

Total Financing Sources - Net                                                     559,587        317,732
Net Cost of Operations                                                          (168,029)      (149,998)

Net Results of Operations                                                            391,558     167,734

Net Position – End of Year                                                  $        986,071   $ 594,513

               The accompanying notes are an integral part of these financial statements.
                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                 35
                          Department of the Treasury Forfeiture Fund
                        STATEMENTS OF BUDGETARY RESOURCES
                        For the years ended September 30, 2010 and 2009
                                       (Dollars in thousands)


                                                                                    2010              2009
                                                                                                   
Budgetary Resources:
                                                                                                       
   Unobligated balances- beginning of year                                  $      299,970  $    183,082   
   Recoveries of prior year unpaid obligations                                         49,620           74,946
   Budget authority                                                              1,083,273       525,527

Total Budgetary Resources                                                   $   1,432,863    $   783,555

Status of Budgetary Resources:

   Obligations incurred                                                     $      852,078  $   483,585
   Unobligated balances - available                                                 580,785       299,970

Total Status of Budgetary Resources                                         $  1,432,863      $   783,555


Change in Obligated Balance:
   Obligated balance, net-beginning of year                                  $     406,020    $   358,143
   Obligations incurred                                                            852,078         483,585 
   Less: Gross outlays                                                           (462,763)       (360,762)
   Less: Recoveries of prior year unpaid obligations, actual                       (49,620)        (74,946)

Obligated balance, net – end of year                                         $    745,715     $   406,020

Net Outlays                                                                  $    462,763     $   360,762




              The accompanying notes are an integral part of these financial statements.



   36           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
                                                  –

Note 1: Reporting Entity

The Department of the Treasury Forfeiture Fund (Treasury Forfeiture Fund or the Fund) was
established by the Treasury Forfeiture Fund Act of 1992, Public Law 102-393 (the TFF Act), and is
codified at 31 USC 9703. The Fund was created to consolidate all Treasury law enforcement bureaus
under a single forfeiture fund program administered by the Department of the Treasury (Treasury).
Treasury law enforcement bureaus fully participating in the Fund upon enactment of this legislation
were the U.S. Customs Service (Customs); the Internal Revenue Service (IRS); the United States
Secret Service (Secret Service); the Bureau of Alcohol, Tobacco and Firearms (ATF); the Financial
Crimes Enforcement Network (FinCEN); and the Federal Law Enforcement Training Center
(FLETC). FinCEN and FLETC contribute no revenue to the Fund and receive relatively few
distributions from the Fund. The U.S. Coast Guard, formerly part of the Department of
Transportation, now part of the Department of Homeland Security (DHS), also participates in the
Fund. However, all Coast Guard seizures are treated as Customs seizures because the Coast Guard
lacks seizure authority.

With enactment of the Homeland Security Act of 2002 (Homeland Security Act), law enforcement
bureaus currently participating in the Fund are: the Internal Revenue Service - Criminal Investigation
(IRS - CI) of Treasury, Customs and Border Protection (CBP), Immigration and Customs
Enforcement (ICE) and the U.S. Secret Service (USSS) of DHS. The U.S. Coast Guard of DHS joins
these bureaus. The Fund continues in its capacity as a multi-Departmental Fund, representing the
interests of law enforcement components of the Departments of Treasury and Homeland Security.

The Fund is a special fund that is accounted for under Treasury symbol number 20X5697. From this
no-year account, expenses may be incurred consistent with 31 USC 9703, as amended. A portion of
these expenses, referred to as discretionary expenses, are subject to annual appropriation limitations.
Others, referred to as non-discretionary (mandatory) expenses, are limited only by the availability of
resources in the Fund. Both expense categories are limited in total by the amount of revenue in the
Fund. The Fund is managed by the Treasury's Executive Office for Asset Forfeiture (EOAF).

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The
goal of the Treasury Forfeiture Fund is to support the Treasury’s national asset forfeiture program in
a manner that results in federal law enforcement’s continued and effective use of asset forfeiture as a
high-impact law enforcement sanction to disrupt and dismantle criminal activity. Under a
Memorandum of Understanding (MOU) with Treasury, CBP acts as the executive agent for certain
operations of the Fund. Pursuant to that executive agency role, CBP’s National Finance Center (NFC)
is responsible for accounting and financial reporting for the Fund, including timely and accurate
reporting and compliance with Treasury, the Comptroller General and the Office of Management and
Budget (OMB) regulations and reporting requirements.




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                               37
Note 2: Summary of Significant Accounting Policies

Basis of Accounting and Presentation

The Fund began preparing audited financial statements in Fiscal Year 1993 as required by the Fund’s
enabling legislation 31 USC§9703(f)(2)(H), and the Chief Financial Officers Act of 1990. Beginning
with the Fiscal Year 1996 report, the Government Management Reform Act of 1994 (GMRA)
requires executive agencies, including the Treasury, to produce audited consolidated accountability
reports and related footnotes for all activities and funds.

The financial statements have been prepared from the accounting records of the Fund in conformity
with accounting principles generally accepted in the United States of America (GAAP) and specified
by OMB in OMB Circular A-136, Financial Reporting Requirements (OMB Circular A-136). GAAP
for federal entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB),
which is designated the official accounting standards setting body of the Federal Government by the
American Institute of Certified Public Accountants.

Allowable Fund Expenses

The majority of the revenue recorded by the Fund is utilized for operating expenses or distributed to
state and local law enforcement agencies, other federal agencies, and foreign governments, in
accordance with the various laws and policies governing the operations and activities of the Fund.
Under the TFF Act, the Fund is authorized to pay certain expenses using discretionary or mandatory
funding authorities of the Fund.

Discretionary authorities include but may not be limited to: the payment of expenses for the purchase
of awards for information or assistance leading to a civil or criminal forfeiture involving any law
enforcement bureau participating in the Fund; purchase of evidence or information that meet the
criteria set out in 31 USC 9703(a)(2)(B); payment for equipment for vessels, vehicles, or aircraft
available for official use as described by 31 USC 9703(a)(2)(D) and (F); reimbursement of private
persons for expenses incurred while cooperating with a Treasury law enforcement organization in
investigations; publication of the availability of certain awards; and payment for training foreign law
enforcement personnel with respect to seizure or forfeiture activities of the Fund. Discretionary
expenses are subject to an annual, definite Congressional appropriation from revenue in the Fund.

Expenses from the mandatory authorities of the Fund include but are not limited to: all proper
expenses of the seizure, including investigative costs and purchases of evidence and information
leading to seizure, holding cost, security costs, etc., awards of compensation to informers under
section 619 of the Tariff Act (19 USC 1619); satisfaction of liens against the forfeited property, and
claims of parties with interest in forfeited property; expenses incurred by state and local law
enforcement agencies in joint law enforcement operations with law enforcement agencies
participating in the Fund; and equitable sharing payments made to state and local law enforcement
agencies in recognition of their efforts in a Fund seizure leading to forfeiture. These mandatory
expenses are paid pursuant to the permanent indefinite authorities of the Fund; are only limited by
revenue in the Fund each year and do not require additional Congressional action for expenditure.



   38          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
The Fund's expenses are either paid on a reimbursement basis or paid directly on behalf of a
participating bureau. Reimbursable expenses are incurred by the respective bureaus participating in
the Fund against their appropriation and then submitted to the Fund for reimbursement. The bureaus
are reimbursed through Inter-Agency Transfers (SF-1081) or Intra-governmental Payments and
Collection (IPAC) System. Certain expenses such as equitable sharing, liens, claims and state and
local joint operations costs are paid directly from the Fund.

Further, the Fund is a component unit of the Treasury with participating bureaus in the DHS. As
such, employees of both Departments may perform certain operational and administrative tasks
related to the Fund. Payroll costs of employees directly involved in the security and maintenance of
forfeited property are also recorded as expenses in the financial statements of the Fund (included in
the line item “seizure investigative costs and asset management” in the statement of net cost.)

Revenue and Expense Recognition

Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state,
local or federal agency. Revenue is not recorded if the forfeited property is ultimately destroyed or
cannot be legally sold.

Revenue from currency is recognized upon forfeiture. Payments in lieu of forfeiture (mitigated
seizures) are recognized as revenue when the payment is received. Revenue received from
participating with certain other federal agencies is recognized when the payment is received.
Operating costs are recorded as expenses and related liabilities when goods are received or services
are performed. Certain probable equitable sharing liabilities existing at year end are accrued based
on estimates.

As provided for in the TFF Act, the Fund invests seized and forfeited currency that is not needed for
current operations. Treasury’s Bureau of Public Debt invests the funds in obligations of, or
guaranteed by, the United States Government. Interest is reported to the Fund and recorded monthly
as revenue in the general ledger.

Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by other
financing sources, which remain available over time. These specifically identified revenues and other
financing sources are required by statute to be used for designated activities, benefits, or purposes,
and must be accounted for separately from the Government’s general revenues. In accordance with
SFFAS 27, Earmarked Funds, all of the TFF’s revenue meets these criteria and constitutes an
earmarked fund.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash collected from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general government purposes. Treasury securities are issued to the
TFF as evidence of its receipts. Treasury securities are an asset to the TFF and a liability to the U.S.
Treasury. Because the TFF and U.S. Treasury are both parts of the government, these assets and
liabilities offset each other from the standpoint of the government as a whole. For this reason, they
do not represent an asset or a liability in the U.S. Government-wide financial statements.


                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                39
Treasury securities provide the TFF with authority to draw upon the U.S. Treasury to make future
benefit payments or other expenditures. When the TFF requires redemption of these securities to
make expenditures, the government finances those expenditures out of accumulated cash balances, by
raising taxes or other receipts, by borrowing from the public or repaying less debt or by curtailing
other expenditures. This is the same way that the government finances all other expenditures.

Equitable Sharing (Assets Distributed)

Forfeited property, currency, or proceeds from the sales of forfeited property may be shared with
federal, state and local law enforcement agencies or foreign governments, which provided direct or
indirect assistance in the related seizure. In addition, the Fund may transfer forfeited property to
other federal agencies, which would benefit from the use of the item. A class of asset distribution
was established for victim restitution in 1995. These distributions include property and cash returned
to victims of fraud and other illegal activity. Upon approval by Fund management to share or
transfer the assets, both revenue from distributed forfeited assets and distributions are recognized for
the net realizable value of the asset to be shared or transferred, thereby resulting in no gain or loss
recognized. Revenue and /or expenses are recognized for property and currency, which are
distributed to or shared with non-federal agencies, per SFFAS No. 7, Accounting for Revenue and
Other Financing Sources.

Entity Assets

Entity assets are used to conduct the operations and activities of the Fund. Entity assets comprise
intragovernmental and non-intragovernmental assets. Intragovernmental balances arise from
transactions among federal agencies. These assets are claims of a federal entity against another
federal entity. Entity assets consist of cash or other assets, which could be converted into cash to
meet the Fund's current or future operational needs. Such other assets include investments of forfeited
balances, accrued interest on seized balances, receivables, and forfeited property, which are held for
sale or to be distributed.

   Fund Balance with Treasury – This represents amounts on deposit with Treasury.

   Investments and Related Interest Receivable – This includes forfeited cash held by the Fund
    and seized currency held in the Customs Suspense Account that had been invested in short term
    U.S. Government Securities.

   Receivables – The values reported for other receivables are primarily funds due from the national
    seized property contractor for properties sold; the proceeds of which have not yet been deposited
    into the Fund. No allowance has been made for uncollectible amounts as the accounts recorded as
    a receivable at year end were considered to be fully collectible as of September 30, 2010 and
    2009.

   Advances – This primarily represents cash transfers to Treasury or law enforcement bureaus
    participating in the Fund for orders to be delivered.

   Cash and Other Monetary Assets – This includes forfeited currency on hand not yet deposited
    and forfeited currency held as evidence.

    40          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
   Forfeited Property and Currency – Forfeited property and currency is recorded in the
    respective seized property and forfeited asset tracking systems at the estimated fair value at the
    time of seizure. However, based on historical sales experiences for the year, properties are
    adjusted to reflect the market value at the end of the fiscal year for financial statement reporting
    purposes. Direct and indirect holding costs are not capitalized for individual forfeited assets.
    Forfeited currency not deposited into the Fund is included as part of Entity Assets - Cash and
    Other Monetary Assets.

Further, mortgages and claims on forfeited assets are recognized as a valuation allowance and a
reduction of deferred revenue from forfeited assets when the asset is forfeited. The allowance
includes mortgages and claims on forfeited property held for sale and a minimal amount of claims on
forfeited property previously sold. Mortgages and claims expenses are recognized when the related
asset is sold and is reflected as a reduction of sales of forfeited property.

Additionally, SFFAS No. 3, Accounting for Inventory and Related Property, requires certain
additional disclosures in the notes to the financial statements, including an analysis of changes in
seized and forfeited property and currency, for both carrying value and quantities, from that on hand
at the beginning of the year to that on hand at the end of the year. These analyses are disclosed in
Notes 8 and 9.

Non-entity Assets

Non-entity assets held by the Fund are not available for use by the Fund. Non-entity assets comprise
intragovernmental and other assets. Intragovernmental balances arise from transactions among
federal agencies. These assets are claims of a federal entity against another federal entity. Non-
entity assets are not considered as financing sources (revenue) available to offset operating expenses,
therefore, a corresponding liability is recorded and presented as governmental liabilities in the
balance sheet to reflect the custodial/fiduciary nature of these activities.

   Seized Currency and Property – Seized Currency is defined as cash or monetary instruments
    that are readily convertible to cash on a dollar for dollar basis. SFFAS No. 3 requires that seized
    monetary instruments (cash and cash equivalents) be recognized as an asset in the financial
    statements and a liability be established in an amount equal to the seized asset value due to: (i) the
    fungible nature of monetary instruments, (ii) the high level of control that is necessary over these
    assets; and (iii) the possibility that these monies may be returned to their owner in lieu of
    forfeiture.

    Seized property is recorded at its appraised value at the time of seizure. The value is determined
    by the seizing entity and is usually based on a market analysis such as a third party appraisal,
    standard property value publications or bank statements. Seized property is not recognized as an
    asset in the financial statements, as transfer of ownership to the government has not occurred as
    of September 30. Accordingly, seized property other than monetary instruments is disclosed in
    the footnotes in accordance with SFFAS No. 3.

   Investments and Related Interest Receivable – This balance includes seized cash on deposit in
    the Fund’s suspense account held by Treasury which has been invested in short term U.S.
    Government Securities.

                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                 41
   Cash and Other Monetary Assets – This balance represents the aggregate amount of the Fund’s
    seized currency on deposit in the Fund’s suspense account held by Treasury, seized cash on
    deposit held with other financial institutions and, cash on hand in vaults held at field office
    locations.

Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources represent liabilities incurred, which are covered by
available budgetary resources. The components of such liabilities for the Fund are as follows:

   Distributions Payable – Distributions payable to federal and non-federal agencies is primarily
    related to equitable sharing payments and payments to be made by the Fund to the victims of
    fraud.

   Accounts Payable – Amounts reported in this category include accrued expenses authorized by
    the TFF Act (See "Allowable Fund Expenses") for which payment was pending at year end.

   Seized Currency – Amounts reported in this category represent the value of seized currency that
    is held by the Fund which equals the amount of seized currency reported as an asset.

   Deferred Revenue from Forfeited Assets – At year end, the Fund held forfeited assets, which
    had not yet been converted into cash through a sale. The amount reported here represents the
    value of these assets, net of mortgages and claims.

Liabilities Not Covered by Budgetary Resources

The Fund does not currently have liabilities not covered by available budgetary resources.

Net Position

The components of net position are classified as follows:
 Retained Capital – There is no cap on amounts that the Fund can carry forward into Fiscal Year
   2010. The cap was removed by the Fiscal Year 1997 Omnibus Appropriations Act (PL 104-208).

   Unliquidated Obligations – This category represents the amount of undelivered purchase orders,
    contracts and equitable sharing requests which have been obligated with current budget resources
    or delivered purchase orders and contracts that have not been invoiced. An expense and liability
    are recognized and the corresponding obligations are reduced as goods are received or services
    are performed. A portion of the equitable sharing requests that were in final stages of approval
    are recognized as liabilities at year end. Prior experience with the nature of this account indicated
    that a substantial portion of these requests were certain liabilities at year end. (See also
    Distributions Payable at Note 10).

   Net Results of Operations – This category represents the net difference, for the activity during
    the year, between: (i) financing sources including transfers, and revenues; and (ii) expenses.



    42          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Note 3: Investments and Related Interest

All investments are intragovernmental short-term (35 days or less) non-marketable par value federal
debt securities issued by, and purchased through Treasury's Bureau of the Public Debt. Investments
are always purchased at a discount and are reported at acquisition cost, net of discount. The discount
is amortized into interest income over the term of the investment. The investments are always held to
maturity. They are made from cash in the Fund and from seized currency held in the Customs
Suspense Account. The Customs Suspense Account became the depository for seized cash for the
Fund following enactment of the TFF Act.

The following schedule presents the investments on hand as of September 30, 2010 and 2009,
respectively (dollars in thousands):

Entity Assets

Description.                                                 Cost     Unamortized        Investment,
                                                                         Discount               Net
September 30, 2010

Treasury Forfeiture Fund -

28 days 0.1150% U.S. Treasury Bills                    $1,383,134            ($124)       $1,383,010

Interest Receivable                                                                                47

Total Investment, Net, and Interest Receivable                                            $1,383,057

Fair Market Value                                                                         $1,383,026

September 30, 2009

Treasury Forfeiture Fund -

35 days 0.0350% U.S. Treasury Bills                      $705,338             ($24)         $705,314

Interest Receivable                                                                                 7

Total Investment, Net, and Interest Receivable                                              $705,321

Fair Market Value                                                                           $705,305




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                              43
Non-entity Assets

Description.                                         Cost      Unamortized         Investment,
                                                                  Discount                Net
September 30, 2010

Treasury Forfeiture Fund –
Seized Currency Suspense Account


28 days 0.1150% U.S. Treasury Bills               $712,918               ($64)          $712,854

Fair Market Value                                                                       $712,862

September 30, 2009

Treasury Forfeiture Fund –
Seized Currency Suspense Account


35 days 0.0350% U.S. Treasury Bills               $522,559               ($18)          $522,541

Fair Market Value                                                                       $522,534




Note 4: Analysis of Non-Entity Assets

The following schedule presents the non-entity assets as of September 30, 2010 and 2009,
respectively, (dollars in thousands):

                                                             2010                2009
    Seized currency:
        Intragovernmental Investments (Note 3)          $     712,854        $    522,541
        Cash and other monetary assets (Note 6)                76,583              76,546
    Total Non-Entity Assets                                   789,437             599,087
    Total Entity Assets                                      1,494,037            807,966
    Total Assets                                       $     2,283,474       $   1,407,053

Note 5: Advances

Advances amounted to $266 thousand and $218 thousand as of September 30, 2010 and 2009,
respectively.



   44          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Note 6: Cash and Other Monetary Assets

Entity Assets

Cash and Other Monetary Assets held on hand included forfeited currency not yet deposited, as well
as forfeited currency held as evidence, amounting to $13.6 million and $18.5 million as of September
30, 2010 and 2009, respectively.

Non-Entity Assets
Cash and Other Monetary Assets included seized currency not yet deposited, as well as deposited
seized currency which is not invested in order to pay remissions, amounted to $76.6 million and
$76.5 million as of September 30, 2010 and 2009, respectively.

Note 7: Forfeited Property

The following summarizes the components of forfeited property (net), as of September 30, 2010 and
2009, respectively, (dollars in thousands):

                                                                        2010               2009
 Held for Sale                                                      $    64,951        $     57,263
 To be shared with federal, state or local, or foreign government         1,585               2,215
   Total forfeited property (Note 8)                                     66,536              59,478
 Less: Allowance for mortgages and claims                                (3,502)             (7,507)
 Total forfeited property, net                                      $    63,034        $    51,971




                          SECTION III - FINANCIAL STATEMENTS AND NOTES                            45
Note 8: FY 2010 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2009 to September 30, 2010.
(Dollar value is in thousands.)

                 10/1/09 Financial                                 10/1/09
                 Statement Balance          Adjustments         Carrying Value           Forfeitures             Deposits/Sales         Disposals/Transfers
                   Value      No.          Value     No.          Value     No.          Value   No.                Value     No.           Value     No.

Currency         $18,188            -         $-           -    $18,188           -   $899,821           -    $(919,499)            -          $-           -
Other Monetary
Instruments          309         -             -           -        309        -           852           -             -          -          (50)         -
Subtotal          18,497         -             -           -     18,497        -       900,673           -     (919,499)          -          (50)         -
Real Property     47,534       196        22,016           -     69,550      196        36,686         122      (43,647)      (114)       (7,429)      (24)
General
Property           4,958     9,391        18,100           -     23,058     9,391       15,919   20,193           (7,382)    (2,827)      (1,273)   (1,248)
Vessels              745        62           505           -      1,250        62        2,416      132           (1,775)       (79)        (715)       (9)
Aircraft             113         6           389           -        502         6          246       10             (295)        (7)            -         -
Vehicles           6,128     3,284         9,223           -     15,351     3,284       42,005   12,098          (38,641)   (12,034)      (9,099)   (1,173)
Subtotal          59,478    12,939        50,233           -    109,711    12,939       97,272   32,555          (91,740)   (15,061)     (18,516)   (2,454)
Grand Total      $77,975    12,939       $50,233           -   $128,208    12,939     $997,945   32,555      $(1,011,239)   (15,061)    $(18,566)   (2,454)

                                                                     Other                                                              Fair Market Value       9/30/10 Financial
                 Victim Restitution          Destroyed            Adjustments           Value Change          2010 Carrying Value          Adjustment           Statement Balance
                   Value     No.          Value          No.      Value      No.        Value          No.         Value          No.      Value       No.         Value        No.
Currency              $-            -        $-            -    $14,052        -         $(3)            -       $12,559            -         $-         -       $12,559          -
Other Monetary
Instruments             -                                  -
                                    -                              (41)          -           -           -         1,070            -           -           -       1,070         -
Subtotal                -           -          -           -     14,011          -         (3)           -        13,629            -           -           -      13,629         -
Real Property           -           -          -           -     17,962         43        (79)           -        73,043          223    (24,090)           -      48,953       223
General
Property                -           -      (168)   (16,486)      (2,120)     313       (8,139)           -        19,895      9,336       (9,234)           -     10,661      9,336
Vessels                 -           -          -       (55)           77        2        (175)           -         1,078         53         (520)           -        558         53
Aircraft                -           -          -        (3)        (129)      (3)         (11)           -           313          3         (164)           -        149          3
Vehicles                -           -          -      (185)        1,810     209         (206)           -        11,220      2,199       (5,005)           -      6,215      2,199
Subtotal                -           -      (168)   (16,729)      17,600      564       (8,610)           -       105,549     11,814      (39,013)           -     66,536     11,814
Grand Total            $-           -     $(168)   (16,729)     $31,611      564      $(8,613)           -      $119,178     11,814     $(39,013)           -    $80,165     11,814




                                    46         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Note 8 (Cont’d): FY 2009 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2008 to September 30, 2009.
(Dollar value is in thousands.)

                10/1/08                                            10/1/08
                Financial            Adjustments                 Carrying Value          Forfeitures             Deposits/Sales            Disposals/Transfers
                Statement Balance
                Value      No.       Value         No.           Value        No.        Value         No.       Value        No.          Value        No.
                                                                                                       No.
Currency         $15,313         -           $-            -      $15,313            -   $465,101            -   $(465,881)            -           $-            -
Other
Monetary                         -            -            -          311            -      9,759            -      (9,752)            -            -
Instruments          311
Subtotal          15,624        -          -               -       15,624           -     474,860          -      (475,633)            -            -
Real Property     83,293      211      6,233               -       89,526         211      34,650        109       (35,927)        (112)     (13,682)         (27)

General                                                    -
Property           6,453    7,797     14,790                       21,243      7,797       19,949      18,341      (10,639)    (1,549)        (1,388)    (1,139)
Vessels              226       44        253               -          479         44        2,698         138       (1,731)       (77)          (170)       (13)
Aircraft             343        5        229               -          572          5        1,598          11       (1,774)        (8)        (1,613)        (3)
Vehicles           6,800    3,114      9,708               -       16,508      3,114       47,202      14,484      (42,876)   (13,766)        (8,007)      (879)
Subtotal          97,115   11,171     31,213               -      128,328     11,171      106,097      33,083      (92,947)   (15,512)       (24,860)    (2,061)
Grand Total     $112,739   11,171    $31,213               -     $143,952     11,171     $580,957      33,083    $(568,580)   (15,512)      $(24,860)    (2,061)

                                                                           Other              Value Change        2009 Carrying Value          Fair Market Value       9/30/09 Financial
                Victim Restitution                Destroyed              Adjustments                                                                 Adjustment       Statement Balance
                   Value      No.     Value              No.        Value         No.       Value        No.         Value          No.         Value         No.      Value        No.
Currency              $-        -        $-                -       $3,655           -          $-          -       $18,188            -            $-           -    $18,188          -
Other
Monetary               -                                   -
Instruments                      -                                     (9)           -           -           -         309             -            -            -       309           -
Subtotal               -         -            -            -        3,646            -           -           -      18,497             -            -            -    18,497           -
Real Property          -         -            -            -                                                                                                     -
                                                                  (4,596)           15      (421)            -      69,550          196      (22,016)                 47,534        196
General
Property               -         -     (116)       (14,534)         2,419       475       (8,410)            -      23,058         9,391     (18,100)            -     4,958      9,391
Vessels                -         -         -           (32)          (15)         2          (11)            -       1,250            62        (505)            -       745         62
Aircraft               -         -         -            (2)         1,719         3             -            -         502             6        (389)            -       113          6
Vehicles               -         -      (15)          (166)         2,737       497         (198)            -      15,351         3,284      (9,223)            -     6,128      3,284
Subtotal               -         -     (131)       (14,734)         2,264       992       (9,040)            -     109,711        12,939     (50,233)            -    59,478     12,939
Grand Total           $-         -    $(131)       (14,734)        $5,910       992      $(9,040)            -    $128,208        12,939    $(50,233)            -   $77,975     12,939




                                                               SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                          47
Note 9: FY 2010 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)

                 9/30/09 Financial                                                                                                                            9/30/10 Financial
                 Statement Balance            Seizures             Remissions               Forfeitures              Adjustments         Value Changes        Statement Balance
                    Value       No.          Value       No.       Value        No.        Value           No.       Value       No.        Value    No.         Value      No.
Currency         $585,258         -       $935,136         -    $(61,691)         -    $(899,821)            -    $219,892         -     $ (2,674)     -      $776,100        -

Other                                                      -
Monetary           13,829            -       2,829                (2,000)          -        (852)             -        751          -      (1,220)       -      13,337            -
Instruments
Subtotal          599,087         -        937,965         -     (63,691)          -    (900,673)             -   220,643           -      (3,894)       -     789,437        -
Real Property     255,834       580         47,552       151     (11,355)       (70)     (36,686)         (122)   (19,967)       (34)     (24,789)       -     210,589      505

General                                                                                                                                                  -
Property          313,578    20,535        187,360    32,129     (74,515)   (4,649)      (15,919)   (20,193)      (25,270)    (5,445)    (108,351)             276,883    22,377
Vessels              5,799      107           7,089      242      (3,003)      (39)       (2,416)      (132)            211      (11)        (908)       -        6,772      167
Aircraft             8,247       23          40,894       30     (31,617)      (12)         (246)       (10)              -       (2)        (524)       -       16,754       29
Vehicles            53,756    7,543          83,876   16,220     (44,309)   (5,221)      (42,005)   (12,098)        (4,372)     (686)        (421)       -       46,525    5,758
Subtotal           637,214   28,788         366,771   48,772    (164,799)   (9,991)      (97,272)   (32,555)       (49,398)   (6,178)    (134,993)       -      557,523   28,836
Grand Total     $1,236,301   28,788      $1,304,736   48,772   $(228,490)   (9,991)    $(997,945)   (32,555)      $171,245    (6,178)   $(138,887)       -   $1,346,960   28,836




                                 48           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Note 9 (Cont’d): FY 2009 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)

                     9/30/08 Financial                                                                                                                     9/30/09 Financial
                    Statement Balance               Seizures           Remissions                  Forfeitures        Adjustments      Value Changes      Statement Balance
                     Value        No.       Value       No.        Value       No.        Value           No.      Value       No.       Value    No.       Value       No.
Currency          $608,463          -    $498,987         -     $(80,112)        -    $(465,101)            -    $23,021         -          $-      -    $585,258         -
Other Monetary
Instruments         12,078                  3,799          -
                                    -                                (11)         -      (9,759)            -       7,722        -            -     -      13,829         -
Subtotal           620,541          -     502,786         -      (80,123)         -    (474,860)            -      30,743        -            -     -     599,087         -
Real Property      297,813        590      57,553       207      (48,724)      (90)     (34,650)        (109)    (15,915)     (18)        (243)     -     255,834       580

General            297,533     18,743     220,793    28,460     (143,548)   (3,744)     (19,949)     (18,341)     (7,923)   (4,583)    (33,328)     -     313,578    20,535
Property
Vessels               7,035       160       5,183       162       (3,421)      (70)      (2,698)        (138)        (49)       (7)       (251)     -        5,799      107
Aircraft              3,241        17       7,811        25         (982)       (6)      (1,598)         (11)       (220)       (2)         (5)     -        8,247       23
Vehicles             55,021     6,996     101,182    20,448      (49,156)   (4,666)     (47,202)     (14,484)     (5,584)     (751)       (505)     -       53,756    7,543
Subtotal            660,643    26,506     392,522    49,302     (245,831)   (8,576)    (106,097)     (33,083)    (29,691)   (5,361)    (34,332)     -      637,214   28,788
Grand Total      $1,281,184    26,506    $895,308    49,302    $(325,954)   (8,576)   $(580,957)     (33,083)      $1,052   (5,361)   $(34,332)     -   $1,236,301   28,788




                                                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                    49
Note 10: Distributions Payable (state and local agencies and foreign governments)

Distributions Payable (state and local agencies and foreign governments) amounted to $375.8 million
and $108.4 million as of September 30, 2010 and 2009, respectively. Fund management recognizes
as a liability a portion (based on the average of historical pay-out percentage) of the equitable sharing
requests, that were approved or in final stages of approval on September 30, 2010 and 2009,
respectively. Prior experience with the nature of this account indicated that a substantial portion of
these requests were certain to be paid out by the Fund during the following fiscal year.

Note 11: Net Position

Cumulative Results

The following summarizes components of cumulative results as of and for the years ended September
30, 2010 and 2009, respectively, (dollars in thousands):

                                                             2010                2009
                 Retained Capital                          $ 293,273      $     180,326
                 Unliquidated Obligations                    301,240            246,453
                 Net Results of Operations                   391,558            167,734
                                                           $ 986,071          $ 594,513

Unliquidated Obligations

The following summarizes the components of unliquidated obligations as of September 30, 2010 and
2009 respectively, (dollars in thousands):

                                                              2010              2009
                  Equitable Sharing                        $ 52,606       $     113,060
                  Mandatory                                  248,634            133,393
                                                           $ 301,240          $ 246,453

Note 12: Related Party Transactions

The Fund reimbursed agencies for the purchase of certain capital assets. These assets are reported by
the participating agencies in their financial statements.

Note 13: Super Surplus

31 USC 9703 (g)(4)(B) allows for the expenditure, without fiscal year limitation, after the reservation
of amounts needed to continue operations of the Fund. This “Super Surplus” balance may be used
for law enforcement activities of any federal agency.

Amounts distributed to other federal agencies for law enforcement activities under “Super Surplus”
requirements amounts to $78.9 million and $42.8 million in fiscal years 2010 and 2009, respectively.

    50          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Note 14: Secretary’s Enforcement Fund

31 USC 9703 (b)(5) is another category of permanent indefinite authority. These funds are available
to the Secretary, without further action by Congress and without fiscal year limitation, for federal law
enforcement purposes of Treasury law enforcement organizations. The source of Section 9703(b)(5)
funds is equitable sharing payments received from the Department of Justice and the U.S. Postal
Service (USPS) representing Treasury's share of forfeiture proceeds from Justice and USPS cases.

Amounts distributed for federal law enforcement purposes of Treasury law enforcement
organizations amounted to $2.9 million and $20.8 million in fiscal years 2010 and 2009, respectively.

Note 15: Commitments and Contingencies

COMMITMENTS
A portion of the equitable sharing requests that were in final stages of approval are recognized as
liabilities as of September 30 (See also Note 10, Distributions Payable).

In addition to the amounts estimated above, there are other amounts, which may ultimately be shared,
that are not identified at this time.

CONTINGENCIES

In the opinion of the Fund’s management and legal counsel, there are no pending or threatened
litigation claims for which the amount of potential loss, individually, or in aggregate, will have a
material adverse effect on the Fund’s financial statements.

Note 16: Disclosures Related to the Statements of Net Cost

Gross costs and earned revenue related to Law Enforcement Programs administered by the Fund are
presented in Treasury’s budget functional classification (in thousands) as set out below:

                                                         2010            2009
       Gross Costs                                     $ 168,029       $ 149,998
       Earned Revenues                                            -               -

       Net Costs                                       $ 168,029       $ 149,998

The Fund falls under the Treasury’s budget functional classification related to Administration of
Justice.

Note 17: Disclosures Related to the Statements of Budgetary Resources

The Fund’s net amount of budgetary resources obligated at the end of fiscal years 2010 and 2009
were $745.7 million and $406.0 million, respectively. This amount is fully covered by cash on hand
in the Fund and Entity Investments. The Fund does not have borrowing or contract authority and,
therefore, has no repayment requirements, financing sources for repayment, or other terms of
borrowing authority. There are no legal arrangements, outside of normal government wide
restrictions, specifically affecting the Fund’s use of unobligated balances of budget authority.
                          SECTION III - FINANCIAL STATEMENTS AND NOTES                               51
Adjustments to budgetary resources available at the beginning of fiscal years 2010 and 2009 consist
of the following (in thousands):

                                                                 2010            2009
             Recoveries of Prior Year Unpaid Obligations $       49,620      $    74,946

Recoveries of prior year obligations are the difference between amounts that Fund management
obligated (including equitable sharing) and amounts subsequently approved for payment against
those obligations.

Note 18: Dedicated Collections

The Fund is classified as a special fund. All its activities are reported as dedicated collections held
for later use.

Note 19: Payments in Lieu of Forfeiture, Net of Refund

The following summarizes Payments in Lieu of Forfeiture, Net of Refunds as of September 30, 2010
and 2009, respectively, (dollars in thousands):

                                                           2010               2009
                 Payments in Lieu of Forfeiture           $ 6,656           $ 8,169
                 Refunds                                    (36,605)         (35,777)
                 Total                                    ($ 29,949)       ($ 27,608)




   52          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Note 20: Reconciliation of Net Cost of Operations (Proprietary) to Budget

The reconciliation of Net Cost of Operations to Budget demonstrates the relationship between the
Fund’s proprietary (net cost of operations) and budgetary accounting (net obligations) information.

                                                                          2010           2009
  Resources Used to Finance Activities:
    Budgetary resources obligated
        Obligations incurred                                         $   852,078 $      483,585
        Less: Spending authority from offsetting
           Collections and recoveries                                    (49,620)       (74,946)
        Net Obligations                                                  802,458        408,639
    Other resources
        Transfers – out                                                  (81,795)       (63,602)
  Total Resources Used to Finance Activities                             720,663        345,037

  Resources Used to Finance Items not Part of the Net
   Cost of Operations
         Change in budgetary resources obligated for goods,
          services and benefits ordered but not yet provided              (50,768)      (10,013)
         Other resources or adjustments to net obligated
          resources that do not affect net cost of operations
            Mortgages and claims                                           (4,298)       (3,407)
            Refunds                                                       (36,605)      (35,777)
            Equitable Sharing (federal, state/local and foreign)         (456,944)     (138,699)
            Victim restitution                                             (4,019)       (7,143)
  Total Resources Used to Finance Items not Part of the Net
   Cost of Operations                                                    (552,634)     (195,039)
  Total Resources Used to Finance the Net Cost of Operations              168,029       149,998
  Net Cost of Operations                                             $   168,029 $      149,998




                        SECTION III - FINANCIAL STATEMENTS AND NOTES                              53
THIS PAGE INTENTIONALLY LEFT BLANK
            SECTION IV

REQUIRED SUPPLEMENTAL INFORMATION

           (UNAUDITED)
THIS PAGE INTENTIONALLY LEFT BLANK
Intragovernmental Amounts – Assets (Dollars in thousands)
                                                    2010                                                     2009
                               Fund                                                Fund
                              Balance        Accounts                             Balance             Accounts
                                with        Receivable/                             with             Receivable/
      Partner Agency          Treasury       Advances          Investments        Treasury            Advances           Investments
 Treasury                    $ 33,490 -     $              -   $           -     $        30,676     $              -    $          -
 Departmental Offices                -                266                  -     $           -       $            218    $          -
 Bureau of Public Debt               -                     -       2,095,911                 -                      -        1,227,862

 Totals                      _ $ 33.490     $         266      $ 2,095,911       $        30,676     $            218    $ 1,227,862

Intragovernmental Amounts – Liabilities (Dollars in thousands)

                                                                             2010                  2009
                                                                           Accounts              Accounts
                    Partner Agency                                         Payable               Payable
                    Department of Justice                              $        4,205            $        2,280

                    Departmental Offices                                        1,171                        949

                    Department of Homeland Security                                   -               10,752

                    Department of Defense                                             -                        3

                    Fincen                                                      4,295                     1,243

                    Tax and Trade                                                470                         285

                    Internal Revenue Service                                   48,436                 25,319
                    Totals                                             $       58,577        $           40,831

Intragovernmental Amounts – Revenues and Costs (Dollars in thousands)

                                                    2010                                                     2009

                              Cost to Generate          Costs to Generate         Cost to Generate                  Costs to Generate
                                  Exchange               Non-Exchange                Exchange                        Non-Exchange
                             Intragovernmental         Intragovernmental         Intragovernmental                 Intragovernmental
     Budget Functions             Revenue                   Revenue                   Revenue                           Revenue

Administration of
  Justice                    $                  -      $             105,273     $                       -         $            90,208




54           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
Intragovernmental Amounts – Non-exchange Revenue (Dollars in thousands):

                                                     2010                            2009
              Partner Agency                In              Out             In              Out


 Department of Justice                  $        -      $     3,792     $        -            3,128
 Department of Homeland Security                 -           36,599              -           32,300
 Department of Treasury                          -                141            -                563
 Internal Revenue Service                        -           35,404              -           21,107
 Financial Crimes Enforcement Network            -            3,944              -            5,355
 Tax and Trade                                   -            1,122                               399
 Department of Labor                             -                300            -                250
 Department of Commerce                          -                493            -                500
  Totals                                $        -      $    81,795     $        -     $     63,602




                  SECTION IV – REQUIRED SUPPLMENTAL INFORMATION (UNAUDITED)                         55
          SECTION V

OTHER ACCOMPANYING INFORMATION

         (UNAUDITED)
                                          TREASURY FORFEITURE FUND
                              Equitable Sharing Summarized by State and U.S. Territories
                                        For the Year Ended September 30, 2010
                                                 (Dollars in Thousands)
                                                      (Unaudited)

     State/U.S. Territories                                    Currency Value              Property Value

     Alabama                                                     $      1,794                $        22
     Alaska                                                                  -                          -
     Arizona                                                              298                           -
     Arkansas                                                             455                           -
     California                                                         9,463                        197
     Colorado                                                             318                         12
     Connecticut                                                           11                           -
     D.C. Washington                                                       28                           -
     Delaware                                                             218                           -
     Florida                                                           11,610                        243
     Georgia                                                           17,673                         67
     Guam                                                                    -                          -
     Hawaii                                                               763                         35
     Idaho                                                                170                           -
     Illinois                                                           6,362                        887
     Indiana                                                              705                           -
     Iowa                                                                 117                          1
     Kansas                                                               293                           -
     Kentucky                                                             427                         33
     Louisiana                                                            543                          2
     Maine                                                              1,605                           -
     Maryland                                                           1,828                         18
     Massachusetts                                                      2,956                        103
     Michigan                                                           1,451                        209
     Minnesota                                                            213                         22
     Mississippi                                                            3                           -
     Missouri                                                           1,335                        124
     Montana                                                               53                           -
     Nebraska                                                                -                          -
     Nevada                                                               841                         18
     New Jersey                                                         7,810                         83
     New Hampshire                                                        436                         45
     New Mexico                                                            16                          4
     New York                                                          15,724                        874
     North Carolina                                                     2,583                        693
     North Dakota                                                            -                          -
     Ohio                                                                 914                         56
     Oklahoma                                                              22                         92
     Oregon                                                               902                         72
     Pennsylvania                                                       3,772                         31
     Puerto Rico                                                        2,115                          6
     Rhode Island                                                          98                           -
     South Carolina                                                     1,766                        248
     South Dakota                                                            -                          -
     Tennessee                                                            345                         95
     Texas                                                             21,741                      1,460
     Utah                                                                    -                          -
     Subtotal carried forward                                        $119,777                     $5,752


56                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
                                          TREASURY FORFEITURE FUND
                              Equitable Sharing Summarized by State and U.S. Territories
                                        For the Year Ended September 30, 2010
                                                (Dollars in Thousands)
                                                     (Unaudited)

     State/U.S. Territories                                    Currency Value                  Property Value

     Subtotal brought forward                                       $119,777                          $5,752
     Vermont                                                              95                             114
     Virgin Islands                                                        -                               -
     Virginia                                                          1,386                               -
     Washington                                                        1,089                             437
     West Virginia                                                         -                               -
     Wisconsin                                                           106                              76
     Wyoming                                                             265                               5

              Totals                                                $122,718                          $6,384



Summarized above are the currency and property values of assets forfeited and shared with state and local
agencies and U.S. Territories participating in the seizure. This supplemental schedule is not a required part of
the financial statement of the Department of the Treasury Forfeiture Fund. Information presented on this
schedule represents assets physically transferred during the year and, therefore, does not agree with total assets
shared with state and local agencies in the financial statements. In addition, the above numbers do not include
the adjustment to present property distributed at net realizable value.




                          SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                 57
                                TREASURY FORFEITURE FUND
              Uncontested Seizures of Currency and Monetary Instruments Valued Over
               $100,000, Taking More Than 120 Days from Seizure to Deposit in Fund
                              For the Year Ended September 30, 2010
                                       (Dollars in Thousands)



31 U.S.C. 9703(f)(2)(E) requires the Secretary of the Treasury to report annually to Congress
uncontested seizures of currency or proceeds of monetary instruments over $100,000, which were not
deposited in the Department of the Treasury Forfeiture Fund within 120 days of the seizure date. There
were no administrative seizures over $100,000 over 120 days old for all bureaus in FY 2010.




58             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
                                   TREASURY FORFEITURE FUND
                           Analysis of Revenue and Expenses and Distributions
                                For the Year Ended September 30, 2010
                                         (Dollars in Thousands)

  Revenue, Expenses and Distributions by Asset Category:
                                                                                             Expenses and
                                                                             Revenue         Distributions

  Vehicles                                                                    $11,314            $150,737
  Vessels                                                                       3,143              192,055
  Aircraft                                                                      3,143               61,873
  General Property                                                             10,057              609,591
  Real Property                                                                35,199               23,877
  Currency and monetary instruments                                         1,080,392              105,115
                                                                            1,143,248            1,143,248
  Less:
    Mortgages and claims                                                       (4,298)             (4,298)
    Refunds                                                                   (36,605)            (36,605)
  Add:
    Excess of net revenues and financing sources over total program                 --                   --
        expenses
  Total                                                                    $1,102,345           $1,102,345

  Revenues, Transfers, Expenses and Distributions by Type of
  Disposition:
  Sales of property and forfeited currency and monetary instruments           679,170              217,216
  Reimbursed storage costs                                                      3,115              114,325
  Assets shared with state and local agencies                                 322,887              322,887
  Assets shared with other federal agencies                                     2,327                2,327
  Assets shared with foreign countries                                        131,730              131,730
  Victim Restitution                                                            4,019                4,019
  Destructions                                                                      --             137,190
  Pending disposition                                                               --             213,554
                                                                            1,143,248            1,143,248
  Less:
    Mortgages and claims                                                       (4,298)             (4,298)
    Refunds                                                                   (36,605)            (36,605)
  Add:
    Excess of net revenues and financing sources over total program                 --                   --
        expenses
  Total                                                                    $1,102,345           $1,102,345

The revenue amount of $1,102,345 is from the Statement of Changes in Net Position. This supplemental
schedule “Analysis of Revenues, Expenses and Distributions” is required under the Treasury Forfeiture Fund
Act of 1992.




                      SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                  59
                                  TREASURY FORFEITURE FUND
                               Information Required by 31 U.S.C. 9703(f)
                                For the Year Ended September 30, 2010
                                        (Dollars in Thousands)

The Treasury Forfeiture Fund Act of 1992, 31 U.S.C. 9703(f), requires the Secretary of the Treasury to
transmit to Congress, no later than February 1, of each year, certain information. The following
summarizes the required information.

(1)   A report on:

      (A) The estimated total value of property forfeited with respect to which funds were not deposited in the
          Department of the Treasury Forfeiture Fund during the preceding fiscal year under any law
          enforced or administered by the Department of the Treasury law enforcement organizations of the
          United States Coast Guard, in the case of fiscal years beginning after 1993.

          As reported in the audited financial statements, at September 30, 2010, the Fund had forfeited
          property held for sale of $64,951. The realized proceeds will be deposited in the Fund when
          the property is sold.

          Upon seizure, currency and other monetary instruments not needed for evidence in judicial
          proceedings are deposited in a Customs and Border Protection (CBP) suspense account.
          Upon forfeiture, it is transferred to the Treasury Forfeiture Fund. At September 30, 2010,
          there was $13,629 of forfeited currency and other monetary instruments that had not yet been
          transferred to the Fund. This is reported as a part of “Cash and Other Monetary Assets” in
          the audited financial statements.

      (B) The estimated total value of all such property transferred to any state or local law enforcement
          agency.

          The estimated total value of all such property transferred to any state or local law
          enforcement bureau is summarized by state and U.S. territories. Total currency transferred
          was $122,718 and total property transferred was $6,384 at appraised value.

(2)   A report on:

      (A) The balance of the Fund at the beginning of the preceding fiscal year.

          The total net position of the Treasury Forfeiture Fund on September 30, 2009 which became
          the beginning balance for the Fund on October 1, 2010, as reported in the audited financial
          statements is $594,513.




60             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
                            TREASURY FORFEITURE FUND
                         Information Required by 31 U.S.C. 9703(f)
                          For the Year Ended September 30, 2010
                                  (Dollars in Thousands)

(B) Liens and mortgages paid and the amount of money shared with federal, state, local and foreign law
    enforcement bureaus during the preceding fiscal year.

    Mortgages and claims expense, as reported in the audited financial statements, was $4,298.
    The amount actually paid on a cash basis was not materially different.

    The amount of forfeited currency and property shared with federal, and distributed to state,
    local and foreign law enforcement bureaus as reported in the audited financial statements was
    as follows:

                                                               Amount
                      State and local                         $322,887
                      Foreign countries                       131,730
                      Other federal agencies                     2,327
                      Victim restitution                         4,019

(C) The net amount realized from the operations of the Fund during the preceding fiscal year, the
    amount of seized cash being held as evidence, and the amount of money that has been carried over
    into the current fiscal year.

    The net cost of operations of the Fund as shown in the audited financial statements is
    $168,029.

    The amount of seized currency not on deposit in the Fund’s suspense account at September
    30, 2010, was $76,583. This amount includes some funds in the process of being deposited at
    yearend; cash seized in August or September 2010 that is pending determination of its
    evidentiary value from the U.S. Attorney; and the currency seized for forfeiture being held as
    evidence.

    On a budgetary basis, unobligated balances as originally reported on the Office of
    Management and Budget Reports, SF-133, “Report on Budget Execution” was approximately
    $580,785 for fiscal year 2010. This excludes $90,000 in FY 2010 rescinded authority that is
    classified as “temporary.” If this figure is added to the unobligated balances at the end of FY
    2010, the figure becomes $670,785.




              SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                61
                                  TREASURY FORFEITURE FUND
                               Information Required by 31 U.S.C. 9703(f)
                                For the Year Ended September 30, 2009
                                        (Dollars in Thousands)

     (D) Any defendant’s property not forfeited at the end of the preceding fiscal year, if the equity in such
         property is valued at $1 million or more.

         The total approximate value of such property for the Treasury Forfeiture Fund, at estimated
         values determined by bureau and contractor’s officials, and the number of seizures is as
         follows:

                 Bureau                          Amount                       Number
                 CBP                             $125,652                  32 seizures
                 IRS                              382,443                 107 seizures
                 U.S. Secret Service               68,072                  29 seizures

     (E) The total dollar value of uncontested seizures of monetary instruments having a value of over
         $100,000 which, or the proceeds of which, have not been deposited into the Fund within 120 days
         after the seizure, as of the end of the preceding fiscal year.

         The total dollar value of such seizures is $0. This is also documented on page 58.

     (F) The balance of the Fund at the end of the current fiscal year.

         The total net position of the Fund at September 30, 2010, as reported in the audited financial
         statements is $986,071.

     (G) The net amount, if any, of the excess unobligated amounts remaining in the Fund at the end of the
         preceding fiscal year and available to the Secretary for Federal law enforcement related purposes.

         There is no cap on amounts that can be carried forward into Fiscal Year 2010 per the fiscal
         year 1997 Omnibus Appropriations Act (PL 104-208).

     (H) A complete set of audited financial statements prepared in a manner consistent with the
         requirements of the Chief Financial Officers Act of 1990.

         The audited financial statements, including the Independent Auditor’s Report, are found in
         Sections II and III.

     (I) An analysis of income and expense showing revenue received or lost: (i) by property category
         (such as general property, vehicles, vessels, aircraft, cash, and real property); and (ii) by type of
         disposition (such as sale, remission, cancellation, placement into official use, sharing with state and
         local agencies, and destruction).

         A separate schedule is presented on page 59.


62            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2010
THIS PAGE INTENTIONALLY LEFT BLANK
THIS PAGE INTENTIONALLY LEFT BLANK
